No.
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦---------------------------------

ANDREW RAYMOND, BRIAN REQUENA,

Petitioners,

v.
UNITED STATES OF AMERICA,
---------------------------------♦---------------------------------

Respondent.

On Petition For A Writ Of Certiorari
To The United States Court of Appeals
for the Second Circuit
---------------------------------♦--------------------------------PETITION FOR WRIT OF CERTIORARI
---------------------------------♦---------------------------------

James E. Felman*
Florida Bar No. 0775568
*Counsel of Record
Katherine Earle Yanes
Florida Bar No. 159727
Gus M. Centrone
Florida Bar No. 0030151
KYNES, MARKMAN & FELMAN, P.A.
100 S. Ashley Drive, Suite 1450
Tampa, Florida 33602
Telephone: (813) 229-1118
Facsimile: (813) 221-6750
jfelman@kmf-law.com
gcentrone@kmf-law.com
kyanes@kmf-law.com

Counsel for Petitioners

i

QUESTIONS PRESENTED
1.
Whether the Controlled Substances
Enforcement Act of 1986 is void for vagueness.

Analogue

2.
Whether the Controlled Substances Analogue
Enforcement Act of 1986 requires jury unanimity as to
whether a substance is controlled by the Act.

ii

PARTIES TO THE PROCEEDING
Pursuant to Supreme Court Rule 14.1(b), Petitioner
states that all parties appear in the caption of the case on
the cover page.
RULE 29.6 STATEMENT
Petitioners are not corporate entities.

STATEMENT OF RELATED PROCEEDINGS
United States District Court for the Northern District of
New York

United States v. Brian Requena and Andrew Raymond
Case No. 5:15-CR-81

United States Court of Appeals for the Second Circuit:

United States v. Brian Requena and Andrew Raymond
Case No. 18-1906

There are no other proceedings in state or federal trial or
appellate courts, or in this Court, directly related to this
case within the meaning of this Court’s Rule 14.1(b)(iii).

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ....................................................i
PARTIES TO THE PROCEEDING ...................................... ii
RULE 29.6 STATEMENT ..................................................... ii
STATEMENT OF RELATED CASES .................................. ii
TABLE OF AUTHORITIES .................................................. vi
PETITION FOR A WRIT OF CERTIORARI ......................... 1
OPINIONS BELOW ............................................................... 1
STATEMENT OF JURISDICTION ....................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .................................................... 1
INTRODUCTION ................................................................... 2
STATEMENT OF THE CASE ................................................ 3
I.

STATEMENT
OF
PROCEEDINGS
AND
DISPOSITION IN THE COURT BELOW .......... 3

II.

THE
REGULATION
OF
CONTROLLED
SUBSTANCES AND ANALOGUES ................... 4

III. STATEMENT OF THE FACTS .......................... 6
A. Facts relating to the indictment and trial of the
alleged offense. ................................................. 6
B. Facts related to the use of experts at trial to
determine whether chemicals are substantially
similar under the Analogue Act. ...................... 7

iv

C. Facts related to the erroneous jury instruction.
............................................................................ 8
D. Petitioner’s appeal to the Second Circuit Court
of Appeals .......................................................... 9
REASONS FOR GRANTING A WRIT OF CERTIORARI.. 10
I.

The Analogue Act is unconstitutionally vague. 10
A. The vagueness doctrine. ................................. 10
B. The vagueness doctrine renders the Analogue
Act unconstitutionally vague. ......................... 12

II.

A jury must unanimously agree that at least one
substance is a controlled substance analogue in
order to convict. .................................................. 20
A. The Sixth Amendment right to a unanimous
verdict. ............................................................. 21
B. The trial court’s unanimity instruction as to the
Analogue Act was erroneous. ......................... 22
C. The panel’s opinion on appeal was erroneous.
.......................................................................... 25

CONCLUSION ..................................................................... 32
APPENDIX

v

APPENDIX
APPENDIX A:

Opinion of the Court of Appeals for the
Second Circuit (November 4, 2020) ..... A1

APPENDIX B:

Order of the Northern District of New
York denying motion to dismiss
superseding indictment (August 23,
2016).................................................... B34

vi

TABLE OF AUTHORITIES
Page
CASES

Connally v. General Const. Co.,

269 U.S. 385 (1926) .................................................... 11

Grayned v. City of Rockford,

408 U.S. 104 (1972) .................................................... 11

Johnson v. United States,

135 S. Ct. 2551 (2015) ............. 10, 11, 12, 13, 14, 17, 18

Mathis v. United States,

136 S.Ct. 2243 (2016) ........................................... 26, 27

McFadden v. United States,

135 S. Ct. 2298 (2015) ..................... 5, 16, 18, 19, 20, 30

Morisette v. United States,

342 U.S. 246 (1952) .................................................... 18

Rehaif v. United States,

139 S.Ct. 2191 (2019) ................................................. 18

Richardson v. United States,

526 U.S. 813 (1999) ...................... 21, 22, 27, 28, 29, 30

Sessions v. Dimaya,

138 S. Ct. 1204 (2018) .................................... 10, 13, 14

United States v. Aguilar,

515 U.S. 593 (1995) .................................................... 11

United States v. Ansaldi,

372 F.3d 118 (2d Cir. 2004) ........................................ 17

United States v. Bamberg,

478 F.3d 934 (8th Cir. 2007) ...................................... 25

United States v. Brown,

279 F. Supp. 2d 1238 (S.D. Ala. 2003) ....................... 26

vii

United States v. Carlson,

810 F.3d 544 (8th Cir. 2016) ................................ 14, 18

United States v. Demott,

906 F.3d 231 (2d Cir. 2018) .......................................... 5

United States v. Evans,

333 U.S. 483 (1948) .................................................... 17

United States v. Fedida,

942 F. Supp. 2d 1270 (M.D. Fla. 2013) ....................... 26

United States v. Gauden,

515 U.S. 506 (1995) .................................................... 25

United States v. Gaydos,

108 F.3d 505 (3d Cir. 1997) ........................................ 24

United States v. Gipson,

553 F.2d 453 (5th Cir. 1977) ....................................... 22

United States v. Groves,

470 F.3d 311 (7th Cir. 2006) ..................................... 24

United States v. Klecker,

348 F.3d 69 (4th Cir. 2003) .................................. 25, 26

United States v. Klecker,
228 F. Supp. 2d 720 (E.D. Va. 2002) ........................ 26

United States v. LaPlante,

714 F.3d 641 (1st Cir. 2013) ...................................... 22

United States v. Libbert,

2015 WL 3466313 (C.D. Cal. June 1, 2015) .............. 26

United States v. MacKay,

715 F.3d 807 (10th Cir. 2013) ....................................... 4

United States v. Makkar,

810 F.3d 1139 (10th Cir. 2015) .............................. 6, 19

viii

United States v. Novak,

841 F.3d 721 (7th Cir. 2016) ............................... 17, 19

United States v. Phifer,

909 F.3d 372 (11th Cir. 2018) .................................... 15

United States v. Reece,
2013 WL 3865067 (W.D.La. July 24, 2013) .............. 26

United States v. Reulet,

2016 WL 7386443 (D. Kan. Dec. 21, 2016) ............. 4, 26

United States v. Ritchie,

734 F. App’x 876 (4th Cir. 2018) ................................ 16

United States v. Sandford,

2016 WL 11483510 (W.D.N.Y. June 20, 2016) .......... 26

United States v. Sloan,

2016 WL 6989768 (E.D. Mo. Sept. 23, 2016) ............ 26

United States v. Sullivan,

2011 WL 3957425 (D.Neb. Aug.17, 2011) ................. 26

United States v. Turcotte,

405 F.3d 515 (7th Cir. 2005) ....................................... 17

United States v. Way,

804 Fed. Appx. 504 (9th Cir. 2020) ..................... 19, 26

United States v. Williams,

553 U.S. 285 (2008) .................................................... 16

United States v. Williams,

2016 WL 4006826 (W.D. Mo. June 29, 2016) ............ 26

ix

CONSTITUTIONAL PROVISIONS AND STATUTES
U.S. Const. amend. V ............................................................. 1
U.S. Const. amend. VI ............................................................. 2
18 U.S.C. § 1956 ..................................................................... 3
21 U.S.C. § 802 ................................................................. 5, 14
21 U.S.C. § 813 ............................................................. passim
21 U.S.C. § 841 ................................................................. 4, 30
28 U.S.C. § 1254 ..................................................................... 1

1

PETITION FOR A WRIT OF CERTIORARI
Petitioners Andrew Raymond and Brian Requena
respectfully petition for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Second Circuit.
OPINIONS BELOW
The opinion of the Court of Appeals for the Second
Circuit is Appendix A and was selected for publication. The
order of the United States District Court for the Northern
District of New York denying Petitioners’ motion to dismiss
the

superseding

indictment

is

Appendix

B

and

is

unpublished.
STATEMENT OF JURISDICTION
The United States Court of Appeals for the Second
Circuit entered its opinion from which relief is sought on
November 4, 2020. A petition for rehearing en banc was
filed on November 18, 2020. That petition was denied on
December 9, 2020. This Court has jurisdiction pursuant to
28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
The

Fifth

Amendment

to

the

United

States

Constitution provides:

“No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor
shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against

2

himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property
be taken for public use, without just compensation.”
The

Sixth

Amendment

to

the

United

States

Constitution provides:

“In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be
confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his
defence.”
INTRODUCTION
This

Court

has

previously

grappled

with

the

Controlled Substances Analogue Enforcement Act of 1986
(the “Analogue Act”) and recognized that the statute
presents vagueness concerns. The Analogue Act permits the
prosecution and imprisonment of citizens who could not
possibly know that their conduct was illegal, based on a
purely subjective “substantially similar” standard that has
no scientific meaning.
Moreover, even if the statute were not vague, the
critical element under the Act that divides criminal conduct
from lawful conduct is whether a particular substance is,
indeed, “substantially similar” to a listed substance. In a
departure from the practice in every other Circuit, the
Second Circuit has deemed this fact a means rather than an
element, thus permitting conviction without juror unanimity

3

on the key question in dispute. This sweeps in a large swath
of innocent conduct. The vagueness of the Act, particularly
in combination with the Second Circuit’s shifting of the
essential issue from an essential element to a mere means,
requires this Court’s intervention.
STATEMENT OF THE CASE
I.

STATEMENT
OF
PROCEEDINGS
DISPOSITION IN THE COURT BELOW

AND

Petitioners were charged with knowingly conspiring
to possess with the intent to distribute one or more
controlled substance analogues in violation of the Analogue
Act, and money laundering in violation of 18 U.S.C. § 1956.
Doc. 63. 1 A trial was held in the Northern District of New
York and Petitioners were convicted on both counts.
The

district

court

sentenced

Mr.

Raymond

to

consecutive terms totaling 300 months’ imprisonment,
followed by a three-year term of supervised release. Doc.
296.

The district court sentenced Mr. Requena to

consecutive terms totaling 240 months’ imprisonment,
followed by a three-year period of supervised release. Doc.
294.
The Second Circuit affirmed Mr. Raymond and Mr.
Requena’s convictions. Appx. A. The Petitioners moved for
rehearing en banc. That motion was denied on December
20, 2020.

Documents entered on the district court’s docket will be cited “Doc. ##
at ##.”
1

4

Both Mr. Raymond and Mr. Requena are currently
incarcerated.
II.

THE
REGULATION
OF
SUBSTANCES AND ANALOGUES

CONTROLLED

Generally, “[t]he Controlled Substances Act [CSA]
prohibits a person from dispensing or distributing a
controlled substance.” United States v. MacKay, 715 F.3d
807, 814 (10th Cir. 2013). The CSA makes it “unlawful for
any person, knowingly or intentionally…to manufacture,
distribute,

or

manufacture,

dispense,

or

distribute,

or

possess

with

dispense,

a

intent

to

controlled

substance.” 21 U.S.C. § 841(a)(1) (2012). Under the Analogue
Act, a “controlled substance analogue shall, to the extent
intended for human consumption, be treated for the
purposes of any Federal law as a controlled substance in
schedule I.” 21 U.S.C. § 813 (2012).
Unlike controlled substances, controlled substance
analogues are not listed in the CSA schedules or otherwise
publicized as illegal. Doc. 323 at 40; see also United States v.

Reulet, 2016 WL 7386443, at *4 (D. Kan. Dec. 21, 2016). The
Analogue Act instead defines a “controlled substance
analogue” as a substance –
(i)the chemical structure of which is substantially
similar to the chemical structure of a controlled
substance in schedule I or II;
(ii)which
has
a
stimulant,
depressant,
or
hallucinogenic effect on the central nervous system
that is substantially similar to or greater than the
stimulant, depressant, or hallucinogenic effect on the

5

central nervous system of a controlled substance in
schedule I or II; or
(iii) with respect to a particular person, which such
person represents or intends to have stimulant,
depressant, or hallucinogenic effect on the central
nervous system that is substantially similar to or
greater than the stimulant, depressant, or
hallucinogenic effect on the central nervous system of
a controlled substance in schedule I or II.
21 U.S.C. § 802(32)(A). The first of the three prongs above is
read in conjunction with the remaining prongs – that is, a
controlled substance analogue must have a chemical
structure substantially similar to a controlled substance and
must have either a substantially similar effect on the central
nervous system or be represented or intended to have such
an effect. McFadden v. United States, 135 S. Ct. 2298, 2305
n.2 (2015); see also United States v. Demott, 906 F.3d 231,
236 n.2 (2d Cir. 2018) (“We assume for the purposes of this
opinion, as have all the parties, that the requirement of
substantial similarity in pharmacological effect is in
addition to the requirement of substantial similarity in
chemical structure.”).
The mens rea in analogue cases requires proof that
the defendant knew either (1) “that the substance with
which he was dealing is some controlled substance – that is,
one actually listed on the federal drug schedules or treated
as such by operation of the Analogue Act – regardless of
whether he knew the particular identity of the substance;”
or (2) that the substance met the Section 802(32)(A)
definition of a controlled substance analogue. Id. at 2305.

6

In other words, the government must prove beyond a
reasonable doubt that the defendant knew the substance he
possessed was either (1) controlled by the CSA or Analogue
Act, or (2) had both of the features derived from the
definition of a controlled substance analogue. United States

v. Makkar, 810 F.3d 1139, 1143 (10th Cir. 2015). If the
government proceeds under the second of these methods, it
must establish the defendant “knew the drug in question
had both a similar chemical structure and similar effects to
a controlled substance.” Id. at 1146.
III.

STATEMENT OF THE FACTS
A.

Facts relating to the indictment and trial of the
alleged offense.

From early 2013 through April 14, 2015, Mr.
Raymond owned and operated Real Feel Products, Inc., in
Los Angeles, California, with Mr. Requena, who was
employed in October 2013 as the company’s general
manager. Doc. 313 at 89-90; Doc. 314 at 34; Doc. 316 at 24;
Doc. 318 at 90. Real Feel manufactured and sold smokable
products containing various synthetic cannabinoids to
retailers, which then sold the product directly to consumers.
Doc. 314 at 103-04; Doc. 315 at 25-26, 68.
Mr. Raymond and Mr. Requena were arrested for
their business at Real Feel on April 14, 2015. Docs. 1, 19, 22.
Petitioners moved to dismiss the superseding indictment,
arguing that the Analogue Act was unconstitutionally
vague. Doc. 80. They asserted that the statutory definition
of “controlled substance analogues” in 21 U.S.C. § 802(32)(A)

7

is unconstitutionally vague. Id. at 17. The district court
denied the motion, holding only that “[b]ecause the
superseding indictment does not allege that the substances
in

issue

are

controlled

substance

analogues

of

cannabimimetic agents, the Court rejects defendants’
vagueness argument.” Appx B:40.
The eleven-day trial in this matter commenced on
July 12, 2017. The primary issues disputed at trial were (1)
whether any of the six synthetic cannabinoids Petitioners
were charged with distributing or possessing was a
controlled substance analogue, and (2) whether Petitioners
knew that. There was no direct testimony or other evidence
that Petitioners knew that any of their products were
unlawful under the Analogue Act.
B.

Facts related to the use of experts at trial to
determine whether chemicals are substantially
similar under the Analogue Act.

The vagueness of the Analogue Act in practice is well
illustrated by the testimony of the government’s two DEA
expert witnesses at the trial. Chemist Dr. Michael Van Linn
said the synthetic cannabinoids at issue are “substantially
similar” in chemical structure to controlled substances, and
pharmacologist Dr. Jordan Trecki said the synthetic
cannabinoids at issue in this case are “substantially similar”
in pharmacological effect to controlled substances. Docs. 54,
55, 69, 74.
In answering the “substantial similarity” question for
the jury as experts, both Van Linn and Trecki used
methodologies that were not in writing, had never been

8

published or subjected to peer review, had no known rate of
error, and cannot be replicated or tested for correctness.
Doc. 322 at 80-84; Doc. 323 at 94, 115-16. A defense expert
testified that the term “substantially similar” is not
quantitative, does not have boundary conditions, and is not
used in scientific literature. Doc. 325 at 127. Moreover, he
testified that there is no scientific way to measure whether
chemicals are “substantially similar” – in part because the
term is not defined in the Gold Book by the International
Union of Pure and Applied Chemistry – and that each
person could feasibly develop their own methodology to
determine structural similarity without standardization.
Doc. 325 at 128-29.
C.

Facts related to the erroneous jury instruction.

The trial court instructed the jury prior to its
deliberations that the determination of the essential element
of whether a substance is a controlled substance analogue
could be less than unanimous:
“Now in order to convict a defendant on Count 1, you
must unanimously agree that the government has
proven that at least one of the substances identified in
Count 1 of the indictment qualifies as a controlled
substance analogue.
You need not, however,
unanimously agree on which of the substance or
substances qualify as a controlled substance analogue.
Additionally, it is not necessary for the government to
prove that a defendant conspired with intent to
distribute or to distribute every substance listed in
Count 1. It is only necessary that you find that the
government has proven that a defendant knowingly
conspired to distribute or possess with intent to
distribute a controlled substance analogue. And again,

9

you need not unanimously agree on which of the
substances a defendant knowingly conspired to
distribute or possess with intent to distribute.”
2d Cir. Doc. 70 at A291-92. Petitioners did not object prior
to or contemporaneously with the trial court’s reading of this
instruction. 2 The jury returned a general verdict of
“GUILTY” on Counts I and II of the Superseding Indictment
as to both Petitioners on July 26, 2017. 2d Cir. Doc. 70 at
A193; A19.
D.

Petitioner’s appeal to the Second Circuit Court
of Appeals

On direct appeal, Petitioners argued that reversal was
required for several reasons, including that: (1) the
Analogue Act is unconstitutionally void for vagueness on its
face; and (2) the trial court erred by instructing the jury that
it was not required to unanimously agree as to whether at
least one particular substance Petitioners possessed or
distributed was a controlled substance analogue.
As to the vagueness challenge, the Second Circuit
held that, because it had previously denied “as-applied”
challenges

to

that

statute,

Petitioners

could

not

“demonstrate the Analogue Act’s invalidity as applied to
every conceivable defendant.” Appx. A:18. That court also
After their convictions, Petitioners moved for a new trial, arguing
that the jury was erroneously instructed that it did not need to
unanimously agree that at least one particular substance qualified as
a controlled substance analogue to convict Petitioners. Docs. 238, 248.
The trial court denied both motions as untimely and without merit,
relying on precedent holding that the specific type of controlled
substance distributed or possessed is not an element of the Controlled
Substances Act.
2

10

rejected Petitioner’s argument that Johnson and Dimaya
require a finding of vagueness as to the Analogue Act.
The

Second

Circuit

also

rejected

Petitioners’

argument that jury unanimity is required as to whether a
substance is a controlled substance analogue.

That court

found the issue is merely a “means” of violating the
Analogue Act and therefore not an element of the offense. In
so finding, the Second Circuit relied exclusively on precedent
involving scheduled controlled substances and held that a
jury need not unanimously agree on the identity of a
controlled substance analogue in order to convict. The
Second Circuit therefore held that the district court
committed no reversible error and affirmed the district
court’s decision. Appx. A:2.
REASONS FOR GRANTING A WRIT OF CERTIORARI
Certiorari should be granted because the questions
presented are recurring issues of national importance
applicable to every case brought under the Analogue Act.
I.

The Analogue Act is unconstitutionally vague.
Certiorari should be granted to determine whether

the Analogue Act is unconstitutionally vague because the
statute permits the prosecution of citizens who do not know,
and have no way of finding out, that a substance is unlawful
under the statute.
A.

The vagueness doctrine.

The void-for-vagueness doctrine is well established:
The government violates the Fifth Amendment Due Process
Clause “by taking away someone’s life, liberty, or property

11

under a criminal law so vague that it fails to give ordinary
people fair notice of the conduct it punishes[.]” Johnson v.

United States, 135 S. Ct. 2551, 2556 (2015) (citing Kolender
v. Lawson, 461 U.S. 352, 357-58 (1983)); see also United
States v. Aguilar, 515 U.S. 593, 600 (1995) (“Fair warning
should be given to the world in language that the common
world will understand, of what the law intends to do if a
certain line is passed.”).
“Vague

laws

offend

several

important

values,”

including the principle that citizens must be provided fair
warning of what the law prohibits and the requirement that
there be boundaries on the discretion of law enforcement.

Grayned v. City of Rockford, 408 U.S. 104, 108 (1972). As to
the fair warning requirement, this Court has held that “a
statute which either forbids or requires the doing of an act in
terms so vague that men of common intelligence must
necessarily guess at its meaning and differ as to its
application violates the first essential of due process of law.”

Connally v. General Constr. Co., 269 U.S. 385, 391 (1926).
At the core of the requirement that the discretion of
law enforcement must be limited is the concern that “if
arbitrary and discriminatory enforcement is to be prevented,
laws must provide explicit standards for those who apply
them.”

Grayned,

408

U.S.

at

108.

“A

vague

law

impermissibly delegates basic policy matters to policemen,
judges, and juries for resolution on an ad hoc and subjective
basis, with the attendant dangers of arbitrary and
discriminatory application.” Id. at 108-09.

12

B.

The vagueness doctrine renders the Analogue
Act unconstitutionally vague.

The Analogue Act does not provide fair warning as to
what substances are prohibited. Perhaps the most striking
feature of the Act is that the public is provided no notice of
what substances the United States considers to be unlawful
under it. The Act does not delegate authority to any agency
to determine what molecules are deemed to be substantially
similar in chemical structure to one another. In practice,
these decisions are made for the Department of Justice by
the DEA’s Office of Diversion Control.

But no agency

informs anyone outside of the government what substances
Diversion Control believes are unlawful under the Act.
That the government’s list of alleged analogues is a
secret is startling and in itself suggests a lack of
constitutional notice. This might be of less consequence if
the secret law were obvious in its application, but there is no
objective methodology by which a person “of common
intelligence” can determine whether a substance does or
does not qualify as an analogue. The term “substantially
similar in chemical structure” is not a term of chemistry,
and there exists no objective framework by which to apply
the term or test the accuracy of its application. Evaluations
of “substantial similarity” are, by their nature, subjective.
In

Johnson, this Court lessened the requisite

standard for declaring a statute vague on its face, explicitly
rejecting

the

proposition

that

a

statute

survives

constitutional scrutiny “merely because there is some

13

conduct that clearly falls within the provision’s grasp.” 135
S. Ct. at 2561.

The Analogue Act is unconstitutionally

vague.
As

the

straightforward

Court

recently

decision,

with

stated:
equally

“Johnson

is

a

straightforward

application[.]” Sessions v. Dimaya, 138 S. Ct. 1204, 1213
(2018). Johnson evaluated the constitutionality of the Armed
Career Criminal Act’s residual clause, which defined “violent
felony” as “any crime punishable by imprisonment for a term
exceeding one year that…otherwise involves conduct that
presents a serious potential risk of physical injury to
another.” 135 S. Ct. at 2555-56 (citing 18 U.S.C. §
924(e)(2)(B)). Two features of the residual clause conspired
to render it unconstitutionally vague. Id. at 2557. First, the
residual clause left “uncertainty about how much risk it
[took] for a crime to qualify as a violent felony.” Id. at 2558.
Second, “[i]t tie[d] the judicial assessment of risk to a
judicially imagined ‘ordinary case’ of a crime,” known as the
“categorical approach” Id. at 2557. Therefore, “[d]eciding
whether the residual clause cover[ed] a crime thus
require[d] a court to picture the kind of conduct that the
crime involve[d] in the ordinary case, and to judge whether
that abstraction present[ed] a serious potential risk of
physical injury.” Id. In Dimaya, the Court applied Johnson
to hold a materially identical statute defining “crime of
violence” void for vagueness. 138 S. Ct. at 1216.
The Analogue Act possesses the same two features
that warranted the Court’s intervention in Johnson and

14

Dimaya. First, the Analogue Act bears the same uncertainty
as to what conduct violates it. The crux of the Analogue Act
is the determination that a substance is a controlled
substance analogue, which requires the jury to decide
whether a substance has a “substantially similar” chemical
structure

and

pharmacological

effect

to

a

controlled

substance. § 802(32)(A). Not only does “substantially
similar” have no specialized or technical meaning, but it is
also not generally accepted in any area of science. United

States v. Carlson, 810 F.3d 544, 549 (8th Cir. 2016). As the
Court held in Johnson, there is nothing inherently
unconstitutional about “laws that call for the application of a
qualitative standard . . . to real world conduct.” 135 S, Ct. at
2561. The problem is that, when it comes to “substantially
similar” chemicals, there is simply no standard to apply –
“substantial

similarity”

is

merely

a

subjective

and

unscientific argument. Defendants cannot know in advance
whether their conduct violates the law.
As shown at trial by Dr. Van Linn and Dr. Trecki, the
Analogue Act requires scientists, courts, juries, and most
defendants tasked with determining the lawfulness of
certain conduct to (maybe) review the dictionary definitions
of “substantial” and “similar,” formulate a subjective
definition of “substantially similar,” and apply the definition
to

substantive

evidence

of

organic

pharmacology with no reference point.

chemistry

and

15

JWH-018

XLR-11

For instance, here the chemical XLR-11 was alleged to
be an analogue of JWH-018, which is a scheduled controlled
substance. Depictions of those two chemicals are above.
Does “substantially similar” refer to the replacement
of the naphthalene ring system in JWH-018 with a
cyclopropane ring in XLR-11? Or the electronic structure of
the ketone as differentially influenced by the naphthalene
vs. the cyclopropane? Or perhaps by the replacement of a
Hydrogen atom in JWH-018 with a Flourine atom in XLR11? Experts in organic chemistry certainly disagree, so how
could a jury of lay people possibly determine whether they
are “substantially similar” when, scientifically, that term
means nothing. The Analogue Act provides no explanation
to guide the application of this ambiguous “standard.” This
poses grave uncertainty for a defendant entitled to fair
notice of what conduct the law prohibits. See United States

v. Phifer, 909 F.3d 372, 388 (11th Cir. 2018) (Jordan, J.,
concurring) (“Criminal statutes and regulations need to be
written in a way that allows a reasonable person to
understand what is prohibited. This is not only an
expectation of good government, it is a demand of
constitutional proportions.”).

16

Second, the way in which the Analogue Act is
prosecuted presents the same problems as the application of
the categorical approach. This Court held in McFadden that
a defendant can only be punished if he knowingly
distributes, manufactures, etc., a controlled substance
analogue. 135 S. Ct. at 2305.

The government, however,

does not publish what substances it is prepared to claim are
controlled

substances

fundamental

analogues.

disagreement

among

There

is

also

chemists

a

and

pharmacologists, including within the DEA, as to whether
particular substances are analogues. See United States v.

Ritchie, 734 F. App’x 876, 877 (4th Cir. 2018) (explaining
that DEA Senior Research Chemist Dr. Arthur Berrier
provided dissenting opinions to the DEA Drug and Chemical
Evaluation

Section

regarding

their

analogue

determinations).
Ultimately, those chemists can only form opinions.
The final analogue determination is left for the jury. But in
determining whether chemical structures are “substantially
similar” to each other, the jury, like chemists, have no
objective standard to guide their efforts. See United States

v. Williams, 553 U.S. 285, 306 (2008) (“What renders a
statute vague is not the possibility that it will sometimes be
difficult to determine whether the incriminating fact it
establishes has been proved; but rather the indeterminacy of
precisely what that fact is. Thus, we have struck down
statutes that tied criminal culpability to....wholly subjective
judgments without statutory definitions, narrowing context,

17

or settled legal meanings.”); United States v. Ansaldi, 372
F.3d 118, 123 n.2 (2d Cir. 2004) (“[I]f a statute’s terms are so
vague that a jury’s determination is likely to be arbitrary,
and, consequently, those terms would not allow an ordinary
person to understand what conduct is prohibited, then the
statute may be unconstitutional.”).
The Analogue Act therefore requires a defendant to
know – in advance of any trial – a jury-imagined opinion of
whether a substance is a controlled substance analogue that
is based solely on the subjective opinions of numerous
chemists who themselves state that there is no scientific
definition of the term “substantially similar.”
A defendant’s precognition of what a jury may decide
about his or her conduct is impossible. See United States v.

Turcotte, 405 F.3d 515, 526 (7th Cir. 2005), abrogated on
other grounds by United States v. Novak, 841 F.3d 721 (7th
Cir. 2016) (“A substance’s legal status as a controlled
substance analogue is not a fact that a defendant can know
conclusively ex ante; it is a fact that the jury must find at
trial.”). Moreover, this delegation of the broad and public
lawmaking power of Congress gives the jury unwarranted
and unfettered discretion to enforce the Analogue Act as it
sees fit and without uniformity or accountability.
The sum of these two features of the Analogue Act
“makes a task for [a defendant] which at best could be only
guesswork.” United States v. Evans, 333 U.S. 483, 495
(1948). As Justice Scalia pronounced in Johnson, “Invoking
so shapeless a provision to condemn someone to prison for

18

[20 or 25] years…does not comport with the Constitution’s
guarantee of due process.” 135 S. Ct. at 2560. Such is the
case here.
The ability of a person to know whether a substance is
“substantially similar” to a controlled substance is the
“‘crucial
conduct.”

element’

separating

innocent

from

wrongful

Rehaif v. United States, 139 S. Ct. 2191, 2197

(2019) (holding that statute forbidding illegal aliens from
possessing firearms required defendant’s knowledge of his
immigration status) (quoting United States v. X-Citement

Video, Inc., 513 U.S. 64, 73 (1994)).

As this Court has

recently recognized, “the cases in which [this Court] ha[ve]
emphasized scienter’s importance in separating wrongful
from innocent acts are legion.” Id. (collecting cases).

The

understanding that an act is criminal only if undertaken
knowingly “is as universal and persistent in mature systems
of law as belief in freedom of the human will and a
consequent ability and duty of the normal individual to
choose between good and evil.” Morisette v. United States,
342 U.S. 246, 250 (1952).
Many courts have read this Court’s McFadden opinion
as an answer to the Constitutional question of whether the
Analogue Act is impermissibly vague. See e.g. United States

v. Carlson, 810 F.3d 544, 550–51 (8th Cir. 2016) (“The
Supreme Court recently determined in McFadden v. United

States that the Analogue Act is not unconstitutionally vague
because the statute's “knowingly or intentionally” scienter
requirement alleviates vagueness concerns by “narrow[ing]

19

the scope of its prohibition, and limit[ing] prosecutorial
discretion.”); United States v. Novak, 841 F.3d 721, 727 (7th
Cir. 2016); United States v. Way, 804 Fed. Appx. 504, 512
(9th Cir. 2020), cert. denied, 141 S. Ct. 371. But that is a
misreading of McFadden.
The issue before the Court in McFadden was the
appropriate mens rea standard. The Court noted that the
scienter it found necessary alleviated some vagueness
concerns, but it did not state that such concerns were
altogether resolved.

The Court noted the vagueness

concerns raised by the defendant, but explained that the
mens rea standard it adopted did not, by itself, render the
statute vague.

The Court rejected McFadden’s proposed

mens rea standard, noting that because “the substantial
similarity test for defining analogues is itself indeterminate,
his proposed alternative scienter requirement would do
nothing to cure” the statute’s vagueness. 135 S. Ct. at 2307.
The McFadden Court specifically recognized that vagueness
concerns might exist with regard to the Analogue Act, but it
did not announce them “cured,” or pass on the issue as it
was not presented. Whether the Analogue Act is void for
vagueness

remains,

even

after

McFadden, an “open

question.” Makkar, 810 F. 3d at 1143. That “open question”
presents this Court with an important opportunity to
provide an answer. Without such guidance from this Court,
lower courts will continue to erroneously cite this Court and
hold that the entirety of the Analogue Act is not void for
vagueness. Those incorrect holdings will continue to infect

20

every Analogue Act prosecution in the United States until
the Court actually determines the answer to that question.
Moreover, while it may be initially comforting that
after McFadden a defendant cannot be convicted of an
Analogue Act offense unless they “know” the substance at
issue qualifies as an analogue, that comfort fades swiftly
upon recognition that the supposed object of “knowledge” is
the purely subjective question of “substantial similarity” in
chemical structure. Because all that may be had regarding
these assessments is opinion rather than knowledge, any
finding that a defendant “knew” the substance qualified as
an analogue is inherently fictional. Allowing juries to
nevertheless speculate and decide that defendants had such
“knowledge” is a game of roulette that cannot be permitted
under the due process clause of the Fifth Amendment. This
issue is of national importance because it will affect every
case brought under the Analogue Act.
II.

A jury must unanimously agree that at least one
substance is a controlled substance analogue in order
to convict.
Certiorari should also be granted regarding the issue

of whether a jury must unanimously agree that a substance
is a controlled substance analogue before convicting under
the Analogue Act.

That question turns on whether the

determination that a substance is a controlled substance
analogue is an element of the offense or a mere means of
committing the offense.
Below, the trial court instructed the jury that it need
not find a substance to be an analogue unanimously. This

21

leads to the absurd result that all but one juror could find all
but one substance to be completely legal and a defendant
could still be convicted.
A jury does not need to determine whether a
substance is a listed “controlled substance” under the
Controlled Substances Act.

Those substances are already

identified and scheduled.

But a jury does determine

whether a particular substance is a “controlled substance
analogue” under the Analogue Act. This fact question is an
essential element the jury is required to find unanimously
beyond a reasonable doubt.

By allowing a less-than-

unanimous jury finding regarding that element, the district
court deprived Petitioners of their Sixth Amendment right to
a jury trial.
While Petitioners did not timely object to the
erroneous jury instruction below, the Second Circuit reached
the merits of the issue. It determined, contrary to many
other courts, that the question is only a “means” of violating
the law and not an element of the offense.

Thus, that

erroneous ruling is now binding precedent.

This Court

should take up the question and provide an answer as to
whether a substance is an analogue is a means or element of
the offense.
A.

The Sixth Amendment right to a unanimous
verdict.

A federal defendant has both a Sixth Amendment and
a procedural right to a unanimous jury finding as to each
essential element of an offense. See Richardson v. United

22

States, 526 U.S. 813, 817 (1999) (“[A] jury in a federal
criminal case cannot convict unless it unanimously finds
that the [g]overnment has proved each element.”); United

States v. Gipson, 553 F.2d 453, 456 (5th Cir. 1977) (“Rule
31(a) of the Federal Rules of Criminal Procedure requires
that a jury verdict in a federal criminal trial be
unanimous.”). Elements are the “principal facts” underlying
a verdict, United States v. LaPlante, 714 F.3d 641, 647 (1st
Cir. 2013), distinct from the “brute facts” or “several possible
means” used to satisfy an element. Richardson, 526 U.S. at
817.
B.

The trial court’s unanimity instruction as to the
Analogue Act was erroneous.

The trial court erred by instructing the jury that it
“need not…unanimously agree on which of the substance or
substances qualify as a controlled substance analogue.” 2d
Cir. Doc. 71 at A291-92. Unlike scheduled controlled
substances, whether a substance is an analogue requires
detailed factual findings for which both parties presented
complex expert testimony below.
The trial court misread the Analogue Act by relying
only on the fact that a controlled substance analogue is
equivalent to a controlled substance, provided in § 813. 2d
Cir. Doc. 70 at A216; A234. It reasoned that because § 813
equates a controlled substance analogue to a controlled
substance, and because the specific type of controlled
substance is not an element of a conspiracy to violate the
CSA, then the jury was not required to agree on which

23

controlled

substance

analogue

Petitioners

knowingly

conspired to possess or distribute. 2d Cir. Doc. 70 at A21618; A234-36.
But the trial court’s reasoning missed a critical step.
A controlled substance is controlled as a matter of law. At a
trial for cocaine possession, the government need only prove
a substance is cocaine because cocaine is always illegal. If it
has, a jury must find the defendant guilty of possessing
cocaine.
But an analogue is only an analogue when the jury
finds it to be.

A defendant is not guilty unless the jury

determines the substance at issue is an analogue (i.e.,
“substantially similar” to an already-scheduled controlled
substance), otherwise the substance was never a controlled
substance analogue at all.

Without a unanimous finding

that a substance is an analogue, there is no analogue to
treat as a controlled substance (as contemplated by § 813).
This is a central issue – indeed, practically the only issue –
in an analogue case. If a substance is not an analogue, no
other issues matter.
As the government stated below, “the prosecution
must prove, typically through expert testimony from a
forensic chemist, the identity of a substance,” and that “this
has not been proven unless and until a trial jury so
determines.” Gov’t Ans. Br. (2d Cir.) at 123. For a scheduled
controlled substance offense, proving this is pro forma and
routine. It can be accomplished with a mere lab report and
accompanying testimony, or often simply by stipulation. In

24

an analogue case, however, the question is more complex
and requires the additional step of a finding of “substantial
similarity.”

Indeed, here it required several days of

competing expert testimony and was the defenses’ entire
case. That step is absent when a case involves a scheduled
drug because the substance has already been deemed as a
matter of law to be illegal. If a jury must find the identity of
a drug (as the government conceded below it must), Gov’t
Ans. Br. (2d Cir.) at 123, it must also find the identity of an
analogue. Until it does, the substance is not an analogue.
Here, the trial court’s error drastically lessened the
burden on the government.
probability

the

jury

would

There is a reasonable
not

have

been

able

to

unanimously agree on whether any of the six substances
charged in the Superseding Indictment was an analogue.
The greater weight of authority has held that
“affirming a conviction where the government has failed to
prove each essential element of the crime beyond a
reasonable doubt…impugns the fairness, integrity and
public reputation of judicial proceedings.” United States v.

Gaydos, 108 F.3d 505, 509 (3d Cir. 1997); see also United
States v. Groves, 470 F.3d 311, 327 (7th Cir. 2006) (“Failing
to require the government to prove an essential element of
the crime affects substantial rights and seriously affects the
public reputation of judicial proceedings.”). This case is no
different. Affirming a conviction following a jury instruction
that negated the most essential element of an Analogue Act
offense would significantly damage the public reputation of

25

judicial proceedings and weaken the historical importance of
a defendant’s right to a jury trial. See United States v.

Gauden, 515 U.S. 506, 510-11 (1995) (explaining the
historical importance of the right to a jury trial).
The district court’s erroneous instruction warrants
reversal of Petitioners’ convictions.
C.

The panel’s opinion on appeal was erroneous.

The Second Circuit likewise erred in affirming the
district court. While recognizing that all elements of a crime
must be proven to a jury unanimously, it held that the “a
substance’s analogue status is nothing more than a means of
fulfilling the element that the defendant’s conduct involved
a ‘controlled substance’ in schedule I or II.” Appx. A:28-29.
It thus concluded that, while “a jury must unanimously find
that the defendant manufactured, distributed, or possessed
with the intent to distribute some schedule I or II controlled
substance, it need not unanimously agree on any more
specific description of that substance.” Id. at 29.
The Second Circuit’s decision below appears to be, at
best, an outlier from virtually every other court to have
considered the issue. Indeed, the Fourth, Eighth, and Ninth
Circuits have determined that whether a substance is a
“controlled substance analogue” is an essential element of an
Analogue Act offense – a question of fact left for the jury.

See United States v. Bamberg, 478 F.3d 934, 939 (8th Cir.
2007) (“[T]he jury was required to find…1,4 BD is a
controlled substance analogue[.]”); United States v. Klecker,
348 F.3d 69, 72 (4th Cir. 2003) (“Whether a particular

26

substance qualified as a controlled substance analogue is a
question of fact.”); United States v. Way, 804 Fed. Appx. 504,
509 (9th Cir. 2020), cert. denied, 141 S. Ct. 371 (2020)
(“Analogue Act cases require the jury to decide whether a
substance is a controlled substance analogue based on the
expert testimony presented at trial.”). 3
The panel here largely relied on an analogy drawn in

Mathis v. United States, 136 S.Ct. 2243, 2249 (2016),
wherein this Court imagined a hypothetical statute that
“requires use of a ‘deadly weapon’ as an element of a crime
and further provides that the use of a ‘knife, gun, bat, or

3 See also e.g., United States v. Brown, 279 F. Supp. 2d 1238, 1245 (S.D.
Ala. 2003) (“As an element of the offense, the government has the
burden of proving beyond a reasonable doubt that the chemical
structure of BD is substantially similar to the chemical structure of
GHB.”), aff’d 415 F.3d 1257 (11th Cir. 2005); see also United States v.
Sloan, 2016 WL 6989768, at *5 (E.D. Mo. Sept. 23, 2016); United States
v. Sandford, 2016 WL 11483510, at *1 (W.D.N.Y. June 20, 2016); United
States v. Reulet, 2016 WL 191883, at *4 (D. Kan. Jan. 14, 2016); United
States v. Libbert, 2015 WL 3466313, at *1 (C.D. Cal. June 1, 2015);
United States v. Fedida, 942 F. Supp. 2d 1270, 1273 (M.D. Fla. 2013);
United States v. Klecker, 228 F. Supp. 2d 720, 727 n.6 (E.D. Va. 2002)
(“Because this issue is an essential element of the Government's proof,
the Court finds the Government has the burden of proving beyond a
reasonable doubt that these substances meet the statutory definition of
a controlled substance analogue.”), aff’d 348 F.3d 69 (4th Cir. 2003);
United States v. Reece, 2013 WL 3865067 (W.D.La. July 24, 2013)
(concluding, in addressing four motions to dismiss brought by other
defendants, that “the factual issue of whether AM–2201 is a controlled
substance analogue cannot be resolved at this stage of the litigation.”);
United States v. Sullivan, 2011 WL 3957425, at * 2, 3 (D.Neb. Aug.17,
2011) (“Whether the chemical structures of these substances are
‘substantially similar to the chemical structure’ of a schedule I or II
controlled substance is an issue of fact to be resolved at trial.”); United
States v. Williams, 2016 WL 4006826, at *3 (W.D. Mo. June 29, 2016)
(whether various substances “actually are controlled substance
analogues is a question of fact that must be assumed as true for
purposes of a motion to dismiss and left to the jury to determine at trial
on the merits.”)

27

similar weapon’ would all qualify.” 4

The Court reasoned

that the different weapons were “diverse means of satisfying
a single element of a single crime,” and therefore “[a] jury
could convict even if some jurors ‘conclude[d] that the
defendant used a knife’ while others ‘conclude[d] he used a
gun,’ so long as all agreed that the defendant used a ‘deadly
weapon.’”

Id.

In other words, in this hypothetical, the

specific weapon is not an element, it is a means.
The Second Circuit’s application of that analogy
misses the mark when applied to the Analogue Act. A juror
will instinctively know the differences between a gun, a bat,
or a “similar weapon.” A juror will know which weapons are
inherently deadly – it is common sense. Here, nothing about
the complicated scientific testimony of four chemistry
experts can be resolved by common sense.
This

Court

addressed

a

similar

situation

in

Richardson, where it was asked to determine “whether a
jury has to agree unanimously about which specific
violations make up the ‘continuing series of violations,’”
required to prove a continuing criminal enterprise. 526 U.S.
at 815. The Court held that such unanimity was required
and was “consistent with a tradition requiring juror

Mathis did not involve the Analogue Act. Instead, the question in
Mathis was whether violation of the Iowa burglary statute was a “violent
4

felony” for purposes of sentence enhancement under the Armed Career
Criminal Act. The Mathis Court concluded that, because the Iowa
burglary statute included vehicles, it was broader than the generic
burglary offense which only included structures. Therefore, it held that
prior convictions under the Iowa burglary statute cannot give rise to an
ACCA sentencing enhancement. Id.

28

unanimity where the issue is whether a defendant has
engaged in conduct that violates the law.” Id. at 819.
This is why the Second Circuit’s analogy here fails – a
jury can know without expert testimony whether a weapon
is deadly. But a jury cannot inherently know whether two
chemicals are substantially similar. And in an Analogue Act
prosecution, that substantial-similarity question is the
difference between a defendant who “has engaged in conduct
that violates the law” and one who has not. Id. Therefore,
this Court should maintain its tradition of requiring jury
unanimity on such issues. To find otherwise could “impose[]
punishment on a defendant for the underlying crimes
without any factfinder having found that the defendant
committed those crimes.” Id. at 822.
Here, the jury was asked to listen to several days of
complex expert testimony from four different Ph.D.’s
regarding whether these chemicals were “substantially
similar” to others, when even that phrase has no actual
scientific meaning. But it is not clear that the jury even
considered it at all, based on the trial court’s instructions.
Indeed, even the Second Circuit’s opinion omitted any
reference to the defense experts and how their disagreement
with the government’s experts was central to the defense
case. Reading the opinion, one would not know the issue
was even disputed. Appx. A:9.
Likewise, the Second Circuit erred in directly
comparing the Controlled Substances Act to the Analogue
Act with respect to the jury unanimity issue. The Controlled

29

Substances Act includes the specific list of drugs that violate
it. The government must only identify the drug, which is
usually done by a simple laboratory test and accompanying
testimony, or often simply by stipulation between the
parties. Gov’t Ans. Br. (2d Cir.) at 123. Conversely, the
Analogue Act requires jurors to parse difficult topics in the
complex field of chemistry. But without a jury instruction
requiring them to unanimously find one or more substances
to be an analogue, a jury may not even discuss what those
days of testimony meant. See Richardson, 526 U.S. at 819
(“[T]reating violations simply as alternative means, by
permitting a jury to avoid discussion of the specific factual
details of each violation, will cover up wide disagreement
among the jurors about just what the defendant did, or did
not, do.”).
Imagine a jury of twelve people in a case involving
twelve different analogues. Each juror finds that only one
substance is an analogue, and all twelve each believe a
different substance is the analogue. The lower court’s ruling
here would lead to the absurd result that more than 90% of
jurors believe that each and every substance is not an
analogue, and they would still convict the defendant for all
twelve. But had the hypothetical court instructed the jury
that it must unanimously find at least one substance was an
analogue, it would not convict.
As this Court recognized in Richardson, there is a risk
“that jurors, unless required to focus upon specific factual
detail,

will

fail

to

do

so,

simply

concluding

from

30

testimony…that where there is smoke there must be fire.”
526 U.S. at 819. Without such an instruction, the topic may
simply never come up in the jury room. That would be a
staggering omission and is inherently unfair to the
defendant.
Additionally, the Second Circuit erred in its analysis
of the syntax of the statute. The panel pointed to the use of
the indefinite article “a” in Section 841(b)(1)(C)’s reference to
“a controlled substance in schedule I or schedule II,” as a
basis for finding that the Analogue Act does not require a
unanimous jury instruction. The panel cited McFadden and
held that the use of “a” in the statute points to “some
undetermined or unspecified particular,” and therefore the
Analogue Act “requires only that the jury find an
‘undetermined

or

unspecified

substance

with

the

characteristics set out in § 802(32)(A).’” Appx A:30 (citing
576 U.S. 186, 191-92 (2015)).
But the panel here ignored that, in McFadden,
“unspecified” only meant that the particular scheduled drug
need not be identified. But the drug must still be “included
in schedule I, II, II, IV, or V.” McFadden, 135 S. Ct. at 2304
(quoting 21 U.S.C. § 802(6)). It did not mean that no drug
must be specified at all, as the panel appeared to interpret
it.

As discussed above, scheduled drugs do not carry the

same concerns of proof at trial as unscheduled analogues. 5
5Moreover,

if § 841(b)(1)(C) instead used a definite article and stated “In
the case of the controlled substance in schedule I or II . . . such person
shall be sentenced . . .” it would not make sense. One could be confused
as to which “the” it refers to, or read “the” as being limited to a single
controlled substance.

31

Finally, the panel recognized that the Second Circuit’s
“past decisions have had occasion to distinguish means from
elements only in cases involving scheduled substances.”
Appx. A:28 (emphasis in original).

However, the Second

Circuit incorrectly believed that Petitioners’ position was
that a jury must “unanimously agree that each particular
substance forming the basis of the conviction does, in fact,
qualify as an analogue.”

Id. (emphasis added). It is not

Petitioners’ position that the jury here must have found all
six synthetic cannabinoids at issue to be analogues in order
to convict. Instead, the trial court erred because it should
have instructed the jury that it must “unanimously agree
that at least one particular substance qualified as a
controlled substance analogue.” Reply Br. (2d Cir.) at 25.
Whether a substance is a “controlled substance
analogue” is not a “means” of committing a crime. It is the
central issue in any analogue case – often the only issue –
and an element of the offense.

This issue is of national

importance because, like the vagueness issues discussed
above, it affects virtually every single Analogue Act case.

32

CONCLUSION
For the reasons set forth above, Petitioners Andrew
Raymond and Brian Requena’s petition for a writ of
certiorari should be granted.
Respectfully submitted,
James E. Felman*
*Counsel of Record
Florida Bar No. 0775568
Katherine Earle Yanes
Florida Bar No. 0159727
Gus M. Centrone
Florida Bar No. 030151
KYNES, MARKMAN & FELMAN, P.A.
100 South Ashley Drive
Suite 1450
Tampa, Florida 33602
Telephone: (813) 229-1118
Facsimile: (813) 221-6750
jfelman@kmf-law.com
kyanes@kmf-law.com
gcentrone@kmf-law.com

Counsel for Petitioners
Date: May 10, 2021

APPENDIX

APPENDIX A
18-1906 (L)

United States v. Requena
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term 2019
(Argued: October 22, 2019 Decided: November 4, 2020)
Nos. 18-1906-cr, 18-1923-cr
––––––––––––––––––––––––––––––––––––
UNITED STATES OF AMERICA

Appellee

-v.BRIAN REQUENA, ANDREW RAYMOND, 1

Defendants-Appellants

––––––––––––––––––––––––––––––––––––
Before: LIVINGSTON, Chief Judge, KEARSE
WALKER, Circuit Judges.

and

A jury in the Northern District of New York convicted Brian
Requena and Andrew Raymond, who together ran a
synthetic marijuana production and distribution operation,
on one count of conspiracy to possess with intent to
distribute and to distribute a controlled substance analogue.
Because the synthetic marijuana they sold did not contain
any chemicals listed on the federal controlled substance
schedules, the jury convicted Requena and Raymond
pursuant to the

1 The Clerk of Court is respectfully instructed to amend the caption as
set forth above.

A:1

Controlled Substance Analogue Enforcement Act, which
provides that substances with chemical and pharmacological
properties “substantially similar” to those of substances
listed on schedule I or II are treated for the purposes of
federal law as controlled substances. Requena and Raymond
challenge their convictions and the sentences imposed by the
district court (Mordue, J.), arguing that (1) the Analogue
Act’s
“substantial
similarity”
requirement
is
unconstitutionally vague on its face; (2) the trial evidence
was insufficient to prove their knowledge that they were
dealing in a “controlled substance”; (3) the district court
erroneously permitted the government’s experts to opine
that the six synthetic cannabinoids at issue had features
“substantially similar” to those of a scheduled substance; (4)
the district court erroneously permitted the jury to convict
Defendants without unanimous agreement on which of the
six synthetic cannabinoids at issue qualified as a controlled
substance analogue; and (5) the district court erroneously
sentenced them based on the total quantity of controlled
substance analogues involved in the conspiracy without
determining which of the substances involved actually
qualified as a controlled substance analogue. We conclude
that each of their claims is meritless. Accordingly, the
judgment of the district court is AFFIRMED.
FOR APPELLEE: STEVEN D. CLYMER, Assistant United
States Attorney (Carla B. Freedman, Michael F. Perry,
Assistant United States Attorneys, on the brief), for Grant
C. Jaquith, United States Attorney for the Northern District
of New York, Syracuse, NY, for the United States of
America.
FOR DEFENDANTS-APPELLANTS: JAMES E. FELMAN
(Brandon K. Breslow, on the brief), Kynes Markman &
Felman, PA, Tampa, FL, for Brian Requena and Andrew

Raymond.

DEBRA ANN LIVINGSTON, Chief Judge:
Defendants-Appellants Brian Requena and Andrew
Raymond (together, “Defendants”) appeal from June 22,
2018 judgments of conviction and sentence in the United

A:2

States District Court for the Northern District of New York
(Mordue, J.), entered after a jury convicted Defendants of
conspiracy to possess with intent to distribute and to
distribute a controlled substance analogue in violation of 21
U.S.C. §§ 846, 841(a)(1), and 841(b)(1)(C); and of conspiracy
to commit money laundering pursuant to 18 U.S.C. §
1956(a)(1)(A)(i), (a)(2)(A), and (h). Defendants’ convictions
arose from their management of a business directed at the
production and sale of synthetic marijuana, which
Defendants and their employees manufactured using at
least six distinct synthetic cannabinoids.
At the time Defendants conspired to distribute them, these
synthetic cannabinoids were not listed on the federal
controlled substance schedules. Instead, the government
charged that these substances were “controlled substance
analogues” under the Controlled Substance Analogue
Enforcement Act of 1986 (“Analogue Act”). The Analogue Act
identifies a controlled substance analogue as a substance
with chemical and pharmacological properties “substantially
similar” to those of a substance listed on schedule I or II, 21
U.S.C. § 802(32), and directs, in part, that these
substances—if “intended for human consumption”—“be
treated[] for the purposes of any Federal law as a controlled
substance in schedule I,” id. § 813(a). 2 In turn, 21 U.S.C. §
841(a)(1) and (b)(1)(C) prohibit the distribution of schedule I
controlled substances and subject violators to up to twenty
years imprisonment.

2 Specifically, 21 U.S.C. § 802(32) provides that, in relevant part, a
“controlled substance analogue” is a substance “(i) the chemical structure
of which is substantially similar to the chemical structure of a controlled
substance in schedule I or II; [and] (ii) which has a stimulant,
depressant, or hallucinogenic effect on the central nervous system that is
substantially similar to or greater than [that] of a controlled substance
in schedule I or II . . . .” See, e.g., United States v. Demott, 906 F.3d 231,
236 n.2 (2d Cir. 2018) (assuming without deciding that these
requirements are conjunctive). Section 813(a), in turn, provides that “[a]
controlled substance analogue shall, to the extent intended for human
consumption, be treated, for the purposes of any federal law as a
controlled substance.” 21 U.S.C. § 813(a).

A:3

Defendants’ appeal challenges, in several respects, the
determination that the Analogue Act subjects them to
conviction and sentence for a violation of the federal drug
laws. Principally, they argue (1) that the Analogue Act’s
“substantial similarity” requirement is unconstitutionally
vague on its face; (2) that the trial evidence was insufficient
to prove Defendants’ knowledge that they were dealing in a
“controlled substance”; (3) that the district court erroneously
permitted the government’s experts to opine that the six
synthetic cannabinoids at issue had features “substantially
similar” to those of a scheduled substance; and (4) that the
district court erroneously permitted the jury to convict
Defendants without unanimous agreement on which of the
six synthetic cannabinoids at issue qualified as a controlled
substance analogue. Alternatively, they urge us to remand
for resentencing because the district court calculated their
base offense levels—based in part on the total quantity of
controlled substances involved in the conspiracy—without
expressly determining which of the six synthetic
cannabinoids qualified as controlled substance analogues.
We reject each of Defendants’ arguments and AFFIRM the
judgment of the district court.
BACKGROUND
I.

Factual Background 3
A.

Sometime in early 2013, Defendant-Appellant Andrew
Raymond called Roger Upchurch with a business
proposition. In 2011 and 2012, Raymond had worked for a
company called Airtime Distribution selling, among other
things, a selection of synthetic marijuana that he marketed
as “herbal incense.” He reached out to Upchurch—who
owned an Arizona-based synthetic marijuana manufacturing
and distribution company called Driftwood Enterprises—in
an effort to “get back into the business.” Trial Tr. 348. As it
3 The factual background presented here is derived primarily from
testimony and exhibits presented by the government at trial.

A:4

turned out, Upchurch was nearing retirement and very
receptive to Raymond’s offer to join forces.
After a few weeks of discussions, Raymond and Upchurch
formed a company called Real Feel Products and moved all
of Upchurch’s synthetic marijuana production operations
from Phoenix to a warehouse in Los Angeles, where
Raymond lived. Upchurch, who lived in Indianapolis and
visited Real Feel’s California warehouse only infrequently,
soon ceded nearly all operational control of the new venture
to Raymond, along with an equal 50% stake in the company.
Real Feel proved quite lucrative for both Raymond and
Upchurch, netting each partner profits of up to $20,000 a
week in 2013 and early 2014. Between 90 and 95% of these
profits came from the sale of synthetic marijuana.
As Upchurch’s involvement in Real Feel waned during the
late summer and early fall of 2013, Raymond hired
Defendant-Appellant Brian Requena to be the company’s
general manager. In that role, Requena served as
Raymond’s “right-hand man,” Trial Tr. 967, supervising Real
Feel’s sales team and aiding in the company’s overall
administration. Shortly after Upchurch left Real Feel
entirely in February 2014, Raymond made Requena an
equal partner. From that point until at least December of
2014, each man drew weekly profits of between $50,000 and
$100,000. As before, around 90% of these profits came from
the sale of synthetic marijuana.
B.
From its establishment in 2013 to the time of Defendants’
arrests in 2015, Real Feel’s core operations remained
relatively consistent. The company obtained—first through
Upchurch and then through Raymond—multi-kilogram
quantities of raw synthetic cannabinoids in powder form
from chemical suppliers based in China. A division of Real
Feel’s approximately 25 employees dissolved the raw
chemicals in acetone and treated leafy plant matter with the
resulting solution. Once the leaves were dry, employees
added flavoring and placed the finished product—which they
called “herbal incense” or “potpourri”—into small bags for

A:5

sale. Despite this nomenclature, and the fact that each bag
bore the label “not for human consumption,” Trial Tr. 765,
Defendants admit that everyone involved “knew the product
was sold with the intention that the consumer would ingest
it for the purpose of getting high,” Appellants’ Br. 4.
Employees shipped the finished and bagged product to
customers from various UPS shipping locations surrounding
Real Feel’s warehouse. Defendants sold the bulk of Real
Feel’s synthetic marijuana to wholesalers, including
Raymond’s former employer Airtime Distribution and
another distribution company called Eagle Eye Products.
Sales to these wholesalers were significant: Between April
2013 and February 2014, revenues just from Eagle Eye and
another distributor with overlapping ownership ran to
nearly $2 million. Real Feel’s sales team also sold synthetic
marijuana directly to smoke shops throughout the United
States.
It was not always easy for Real Feel to obtain the raw
synthetic cannabinoids that formed the heart of its
manufacturing enterprise. From time to time, a shipment of
raw chemical would be seized at customs. And periodically,
Defendants learned that the United States Drug
Enforcement Administration (“DEA”) had decided to list the
active chemical in their synthetic marijuana on the federal
controlled substance schedules. When this happened,
Defendants sold all remaining product incorporating that
chemical at a discount and arranged for Real Feel’s
suppliers to ship an alternative chemical intended to
produce the same high. As a result, over the course of Real
Feel’s
existence,
Defendants’
synthetic
marijuana
incorporated a number of different synthetic cannabinoids.
C.
Unbeknownst to Defendants, Real Feel was under
investigation from nearly the time of its establishment. In
early 2013, the New York State Police discovered synthetic
marijuana during a search of a smoke shop in DeWitt, New
York. The DEA adopted the investigation and traced the
contraband to Eagle Eye. Further inquiry revealed that

A:6

Eagle Eye, in turn, bought its synthetic marijuana from Real
Feel. A few months after the seizure in DeWitt, DEA agents
linked both Eagle Eye and Real Feel to synthetic marijuana
found in another smoke shop in Auburn, New York. Around
the same time, DEA agents in Los Angeles recovered
artificial cannabinoid residue from trash bags that
Defendants’ employees had discarded in a dumpster outside
Real Feel’s warehouse. The same agents also observed
Raymond and other Real Feel personnel delivering boxes to
Eagle Eye’s offices in California.
On February 12, 2014, federal agents executed search
warrants on multiple locations including Real Feel’s
warehouses in Los Angeles. 4 Their searches recovered, inter
alia, several varieties of raw synthetic cannabinoids, a
substantial quantity of finished synthetic marijuana, and
sales records. The records connected Real Feel to numerous
sales of synthetic marijuana to various smoke shops in the
Northern District of New York, where Defendants were
ultimately tried. Following the searches on February 12,
2014, Upchurch terminated his involvement with Real Feel,
began cooperating with the DEA’s investigation, and
ultimately pleaded guilty in the Southern District of Indiana
to charges mirroring those brought against Defendants in
the Northern District of New York.
After the February seizures, Raymond suspended Real
Feel’s operations, but did not dissolve the company. Instead,
about two months later, Defendants revived Real Feel and
resumed production of synthetic marijuana in a larger
warehouse in a different part of Los Angeles. Requena, who
became Raymond’s partner shortly after reopening, opened
several new bank accounts and postal boxes on Real Feel’s
behalf, often identifying Real Feel as a clothing business.
Real Feel’s operations, however, remained sharply focused
on synthetic marijuana and, as noted above, continued to net
its owners substantial profits.

By this point, Real Feel had expanded its operations to two warehouses
with a common parking lot.
4

A:7

On April 14, 2015—after further investigation that included
the seizure of more than 50 kilograms of synthetic
cannabinoids shipped to Requena from Real Feel’s suppliers
in China—federal agents executed a warrant to search Real
Feel’s new warehouse. There, agents recovered dozens of
bins of synthetic marijuana and multiple kilograms of raw
synthetic cannabinoids. In all, seizures of Real Feel’s
product from its warehouses and its customers’ shops
connected Defendants to at least six synthetic cannabinoid
compounds. On the same day, both Defendants were
arrested and taken into federal custody.
II.

Procedural History

On March 24, 2016, a federal grand jury in the Northern
District of New York returned the operative indictment,
which charged both Raymond and Requena with one count
of conspiring to distribute and possess with intent to
distribute one or more controlled substance analogues in
violation of 21 U.S.C. §841(a)(1)—rendering them subject to
sentencing under § 841(b)(1)(C)—and onecount of conspiracy
to commit promotional and international money laundering
in violation of 18 U.S.C. § 1956(a)(1)(A)(i), (a)(2)(A), and (h).
The indictment specifically alleged that Defendants’ offense
involved the following six substances, each of which it
alleged was a controlled substance analogue: XLR11, PB-22,
5F-PB-22, AB-PINACA, 5F-AB-PINACA, and APPCHMINACA.
A jury trial commenced in the United States District Court
for the Northern District of New York (Mordue, J.) on July
12, 2017 and concluded on July 26, 2017. Numerous
witnesses—including
Upchurch,
former
Real
Feel
employees, former Real Feel customers, and DEA agents
involved in the investigation—testified regarding Real Feel’s
operations and Defendants’ roles in them. The government
also offered the expert testimony of DEA chemist Michael
Van Linn and DEA pharmacologist Jordan Trecki, who
opined that the six chemicals alleged in the indictment were
substantially
similar
in
chemical
structure
and
pharmacological effect to various substances listed on the
federal controlled substance schedules.

A:8

The jury retired to deliberate on July 25, 2017. Prior to its
deliberations, the district court instructed the jury, inter
alia, that in order to convict Defendants of conspiracy to
distribute or possess with intent to distribute a controlled
substance, it must “unanimously agree that the government
has proven that at least one of the substances identified in
Count [One] of the indictment qualifies as a controlled
substance analogue” but that it “need not . . . unanimously
agree on which of the substance or substances qualify.” A.
291–92. Neither party objected to this or any other part of
the instructions.
On July 26, 2017, the jury returned guilty verdicts as to both
defendants on both counts charged in the indictment. On
June 20, 2018, the district court sentenced Raymond to
consecutive terms of 180 months’ imprisonment on Count
One and 120 months’ imprisonment on Count Two, followed
by a three-year term of supervised release. On the same day,
it sentenced Requena to consecutive terms of 180 months’
imprisonment on Count One and 60 months’ imprisonment
on Count Two, followed by a three-year term of supervised
release. Both sentences were substantially below the range
indicated by the United States Sentencing Guidelines, which
the district court calculated based in part on the total weight
of controlled substance analogues federal agents seized from
Defendants’ warehouses. Two days later, the district court
entered its judgments of conviction and sentence as to both
Raymond and Requena. Both Defendants timely appealed.
DISCUSSION
I.

Defendants’ Vagueness Challenge

Defendants first argue that we must vacate their convictions
because the Analogue Act is unconstitutionally vague on its
face. They claim that since no objective standard governs a
juror’s determination of whether a substance has a chemical
structure and pharmacological effects that are “substantially
similar” to those of a scheduled substance, the Act’s
definition of a “controlled substance analogue” invites
impermissibly arbitrary enforcement and provides potential

A:9

defendants with no warning about what conduct is
prohibited. Defendants argue that the Analogue Act is
inherently vague as applied against any potential
defendant—necessarily including themselves—but make no
separate, more specific argument that the Act is
unconstitutionally vague as applied to the facts of this case.
A “statute is unconstitutionally vague if it fails to define the
unlawful conduct with ‘sufficient definiteness that ordinary
people can understand what conduct is prohibited,’ or if its
vagueness makes the law unacceptably vulnerable to
‘arbitrary enforcement.’” United States v. Demott, 906 F.3d
231, 237 (2d Cir. 2018) (quoting Kolender v. Lawson, 461
U.S. 352, 357–58 (1983)). Vagueness challenges typically
concern a statute “as applied” to the challenger, who
professes that the law in question “cannot constitutionally
be applied to the challenger’s individual circumstances.”
Copeland v. Vance, 893 F.3d 101, 110 (2d Cir. 2018). But a
party may also challenge a statute as vague on its face,
asserting that it is “so fatally indefinite that it cannot
constitutionally be applied to anyone.” Id. In the ordinary
case, a facial vagueness challenge carries a significant
burden: “the challenger must establish that no set of
circumstances exists under which the Act would be valid.”
Id. (quoting United States v. Salerno, 481 U.S. 739, 745
(1987)).
The Supreme Court has recognized three circumstances in
which a statute that is not necessarily vague in all
applications may nonetheless be void for vagueness on its
face. In the most established of these, a challenger may raise
a facial challenge if the statute implicates rights protected
by the First Amendment, even if the statute is not vague as
applied to that challenger’s conduct. See, e.g., Parker v.
Levy, 417 U.S. 733, 759 (1974) (“First Amendment . . .
attacks have been permitted ‘on overly broad statutes with
no requirement that the person making the attack
demonstrate that his own conduct could not be regulated by
a statute drawn with the requisite narrow specificity.’”
(quoting Dombrowski v. Pfister, 380 U.S. 479, 486 (1965)));
cf. Kolender, 461 U.S. at 358–59 n.8 (“[W]e permit a facial
challenge if a law reaches ‘a substantial amount of

A:10

constitutionally protected conduct.’” (quoting Village of
Hoffman Estates v. Flipside, Hoffman Estates, Inc., 455 U.S.
489, 494 (1982))). A plurality of the Supreme Court has also
suggested that “a criminal law lacking a mens rea
requirement and burdening a constitutional right ‘is subject
to facial attack’ ‘[w]hen vagueness permeates the text of
such a law,’” even if that law does not impinge on rights
guaranteed by the First Amendment specifically. N.Y. State
Rifle & Pistol Ass’n v. Cuomo, 804 F.3d 242, 265 (2d Cir.
2015) (alteration in original) (quoting City of Chicago v.
Morales, 527 U.S. 41, 55 (1999) (plurality opinion)). Finally,
in a recent trilogy of cases beginning with Johnson v. United
States, 576 U.S. 591 (2015), the Supreme Court struck down
three statutes that required courts to evaluate whether the
“idealized ordinary case” of a criminal offense constitutes a
“violent felony,” 576 U.S. 602–04, or a “crime of violence,”
Sessions v. Dimaya, 138 S. Ct. 1204 (2018); United States v.
Davis, 139 S. Ct. 2319 (2019). Johnson held, and Dimaya
reaffirmed, that such a statute may be void for vagueness
even though “some conduct . . . clearly falls within the
provision’s grasp.” Johnson, 576 U.S. at 602; Dimaya, 138 S.
Ct. at 1214 n.3. Neither the Supreme Court nor our Court
has definitively resolved whether facial vagueness
challenges not based on the First Amendment may proceed
against statutes that can constitutionally be applied to the
challenger’s own conduct. Copeland, 893 F.3d at 111; see
also Farrell, 449 F.3d at 495 n.12.
Instead, we typically evaluate “[v]agueness challenges to
statutes not threatening First Amendment interests . . . in
light of the facts of the case at hand,” i.e., only “on an asapplied basis.” Maynard v. Cartwright, 486 U.S. 356, 361
(1988); accord United States v. Holcombe, 883 F.3d 12, 17
(2d Cir. 2018) (“Where . . . First Amendment rights are not
implicated, we evaluate such a challenge . . . [without]
regard to the facial validity of the criminal statute or
regulation at issue.” (emphasis added)). And we have often
declined to entertain facial challenges where the challenger
asserts no infringement of First Amendment or other
fundamental rights protected by the Constitution. See
Dickerson v. Napolitano, 604 F.3d 732, 743–45 (2d Cir.
2010). Despite this “baseline aversion to facial challenges,”

A:11

we are permitted to consider them in appropriate cases, 5 id.
at 742, and we have done so in the past to facilitate a
challenge’s definitive rejection, see United States v. Rybicki,
354 F.3d 124, 131–32 & n.3, 144 (2d Cir. 2003) (en banc)
(“While it is unclear . . . whether it is appropriate to decide
the question of the asserted facial invalidity . . . , we think
that a conclusion of facial invalidity would be inconsistent
with the foregoing analysis.”); see also Farrell, 449 F.3d at
495 n.11 (acknowledging the Rybicki court’s decision to
“assess[] the facial validity of the statute even though no
First Amendment rights were implicated.”). But even where
we have addressed the merits of a facial challenge outside
the First Amendment context, we have recognized the
Supreme Court’s instruction to at least “examine the
complainant’s conduct before analyzing other hypothetical
applications of the law.” Rybicki, 354 F.3d at 130 (quoting

Village of Hoffman Estates v. Flipside, Hoffman Estates,
Inc., 455 U.S. 489, 495 (1982)).

In this case, however, we need not examine either
Defendants’ conduct or “other hypothetical applications of
the law,” id., in order to reject their facial challenge—
assuming arguendo that they are entitled to bring one at all.
Despite Defendants’ contention that the Analogue Act is
vague as applied to all possible prosecutions, precedent
definitively establishes that they cannot “establish that no
set of circumstances exists under which the Act would be
valid.” Salerno, 481 U.S. at 745. We have on several
occasions upheld the Analogue Act’s definition of a
“controlled substance analogue” against as-applied
vagueness challenges. 6 Demott, 906 F.3d at 237–39; United
Certain of our decisions’ unequivocal language notwithstanding, see
Holcombe, 883 F.3d at 17; United States v. Nadi, 996 F.2d 548, 550 (2d

5

Cir. 1993), we have declined to endorse wholesale the proposition that
facial challenges are entirely foreclosed outside the First Amendment
context. See N.Y. State Rifle & Pistol Ass’n, 804 F.3d at 265; Dickerson,
604 F.3d at 733; United States v. Rybicki, 354 F.3d 124, 131–32 & n.3,
144 (2d Cir. 2003) (en banc).
6 Other circuits to have considered this issue have likewise concluded
that the “substantially similar” language in the Analogue Act is not
unconstitutionally vague. See, e.g., United States v. Turcotte, 405 F.3d
515, 531–32 (7th Cir. 2005) (collecting cases),abrogated on other grounds
by United States v. Novak, 841 F.3d 721, 729 (7th Cir. 2016).

A:12

States v. Ansaldi, 372 F.3d 118, 122–24 (2d Cir. 2004),
abrogated on other grounds by McFadden v. United States,
576 U.S. 186 (2015); United States v. Roberts, 363 F.3d 118,
122–27 (2d Cir. 2004); see also United States v. Lawton, 759

F. App’x 66, 67 (2d Cir. 2019) (summary order). It is
therefore impossible for Defendants to demonstrate the
Analogue Act’s invalidity as applied to every conceivable
defendant.
Defendants attempt to skirt these precedents by arguing
that the Supreme Court’s recent decisions in Johnson,
Dimaya, and Davis—each of which invalidated a criminal
statute as facially vague notwithstanding the potential for
conduct that “clearly falls within the provision’s grasp,”
Johnson, 576 U.S. at 602—are intervening authority that
not only permit us to entertain a facial challenge outside of
the First Amendment context, but actually require us to
repudiate our prior cases sustaining the Analogue Act
against as-applied vagueness challenges. See Lotes Co.
v.Hon Hai Precision Indus. Co., 753 F.3d 395, 405 (2d Cir.
2014) (explaining that onepanel of our Court may not
usually overrule another unless “an intervening Supreme
Court decision [has] cast[] doubt on our controlling
precedent” (quoting In re Zarnel, 619 F.3d 156, 168 (2d Cir.
2010)). They claim that Johnson and its progeny establish a
new framework for facial vagueness challenges under which
(1) every application of the Analogue Act is unconstitutional
and (2) in any case, the existence of some straightforward
applications cannot save the statute from invalidation. We
conclude that none of those decisions suggests that we may
(or should) depart from our prior decisions upholding the
Analogue Act.
First, we decided Demott after the Supreme Court had
already published Johnson and Dimaya. Indeed, our decision
to reject the defendants’ as-applied vagueness challenge to
the Analogue Act’s “substantial similarity” requirement
relied in part on those cases’ explication of vagueness
doctrine. See Demott, 906 F.3d at 237 (“[A]s the Supreme
Court has recently explained, . . . ‘non-numeric,’ ‘qualitative
standard[s]’ abound in our law, and are not so inherently
problematic as to independently render a statute void for

A:13

vagueness.” (quoting Dimaya, 138 S. Ct. at 1215)). Demott
also affirmed the continuing vitality of our prior case law
“uph[olding] the Analogue Act against vagueness
challenges.” Id. In other words, Johnson and Dimaya are not
intervening authority at all.
Second,
and
more
importantly,
the
“exceptional
circumstances” that justified Johnson’s extraordinary facial
invalidation are not present here. See Copeland, 893 F.3d at
111 n.2. Demott, which concerned only an as-applied
challenge to the Analogue Act’s “substantially similar”
requirement, did not call on us to expressly distinguish that
statutory provision from those that Johnson and its progeny
invalidated as facially vague. That question is squarely
before us now, and we conclude that the concern that
motivated the Supreme Court’s rulings in Johnson, Dimaya,
and Davis is inapplicable to the Analogue Act. Each of those
decisions invalidated a statute that required courts to apply
the “categorical approach”—that is, to estimate the degree of
risk posed by the imagined “idealized ordinary case” of a
criminal offense, abstracted from the defendant’s actual
conduct. Johnson, 576 U.S. at 604. In each case, it was not
the laws’ employment of qualitative standards, but rather
those standards’ application to a “judge-imagined
abstraction,” that rendered them unconstitutionally vague.
Johnson, 576 U.S. at 598; see also Dimaya, 138 S. Ct. at
1215–16.
In Johnson, the Court explained that its holding does not
call into “doubt the constitutionality of laws that call for the
application of a qualitative standard such as ‘substantial
risk’ to real-world conduct.” 576 U.S. at 604 (emphasis
added). To the contrary, it recognized that “the law is full of
instances where a man’s fate depends on his estimating
rightly some matter of degree.” Id. (internal quotation marks
and alteration omitted). It is only when such a qualitative
standard “conspire[s]” with an ordinary-case requirement
that the statute at issue “produces more unpredictability
and arbitrariness than the Due Process Clause tolerates.”

Id.

A:14

The Analogue Act harbors no such conspiracy. We have
recognized that determining whether a substance is
“substantially similar” to another “inevitably involves a
degree of uncertainty,” Demott, 906 F.3d at 237 (citing
United States v. Makkar, 810 F.3d 1139, 1143 (10th Cir.
2015) (Gorsuch, J.)). But the factfinder in an Analogue Act
prosecution applies its qualitative standard exclusively to a
defendant’s real-world conduct. Neither the Supreme Court
nor our Court has ever extended the reasoning in Johnson
and its progeny to invalidate a statute that does not require
application of the categorical approach. Rather, this Court
has expressly cabined the Johnson reasoning to statutes
that do. See Copeland, 893 F.3d at 111 n.2 (suggesting that
Johnson’s license to strike down a “criminal statute . . . as
facially vague even where it has some valid applications”
extends only to the “exceptional circumstances” present in
that case and its progeny).
In an effort to bring this case within Johnson’s narrow
ambit, Defendants insist that the Analogue Act does
“possess[] the same two features that warranted the
Supreme Court’s intervention” in that case. Appellants’ Br.
at 30. This is so, they argue, because the Analogue Act first
imposes a qualitative “substantially similar” standard, and
second requires a defendant to know in advance a “juryimagined opinion of whether a substance is a controlledsubstance analogue.” Id. at 32. But this putative second
problem—despite Defendants’ artful attempt to mirror
Johnson’s concern over a “judge-imagined abstraction”—is
nothing more than a restatement of the first, and certainly
not equivalent to the application of the categorical approach.
That an Analogue Act defendant is subject to a jury’s
understanding of substantial similarity is simply one more
(constitutionally permissible) instance in which “a man’s
fate depends on his estimating rightly some matter of
degree.” Johnson, 576 U.S. at 604 (internal quotation marks
and alteration omitted); see also Demott, 906 F.3d at 237
(emphasizing that “non-numeric” and “qualitative”
standards “are not so inherently problematic as to
independently render a statute void for vagueness”). The key
to the Act’s constitutionality under Johnson is that whoever
applies its “substantial similarity” standard—whether a

A:15

potential defendant weighing the legality of his conduct ex
ante, or a juror doing so ex post—does so in connection with
real-world conduct. The Analogue Act imposes nothing
resembling an “ordinary case” requirement; it calls upon
jurors to determine only whether the actual substance at
issue is substantially similar in both structure and effect to
an actual scheduled substance. In sum, Defendants’
contention that the Analogue Act “presents the same
problems as the application of the categorical approach,”
Appellants’ Br. at 31, is without merit. 7
II.

Defendants’ Sufficiency Challenge

Defendants next challenge the sufficiency of the
government’s evidence to prove their knowledge that they
possessed or distributed a controlled substance analogue. 8
We review challenges to the sufficiency of trial evidence de
novo. United States v. Lyle, 919 F.3d 716, 737 (2d Cir. 2019).
In so doing, we view the evidence in the light most favorable
to the Government with all reasonable inferences resolved in
the Government’s favor. United States v. Anderson, 747 F.3d
51, 60 (2d Cir. 2014). We must uphold the jury’s verdict “if
any rational trier of fact could have found the essential
elements of the crime had been proved beyond a reasonable
doubt.” United States v. Valle, 807 F.3d 508, 515 (2d Cir.
2015) (emphasis added). We therefore “assum[e] that the
jury resolved all questions of witness credibility . . . in favor
of the prosecution,” United States v. Abu-Jihaad, 630 F.3d
7 The two circuits to have considered facial vagueness challenges to the
Analogue Act since Johnson have reached the same conclusion. United
States v. Palmer, 917 F.3d 1035, 1038 (8th Cir. 2019) (rejecting a facial
vagueness challenge based on Johnson in part “[b]ecause we do not apply
the categorical approach under the Analogue Act.”); United States v.
Larson, 747 F. App’x 927, 930 (4th Cir. 2018) (unpublished decision)
(rejecting an unpreserved facial challenge to the Analogue Act on plain
error review but declining to rule definitively on the Act’s
constitutionality).
8 Defendants do not challenge the sufficiency of the evidence to prove
that the substances in question were controlled substance analogues,
and their counsel conceded at oral argument that such an argument
would lack merit.

A:16

102, 134 (2d Cir. 2010), and “defer to the jury’s
determination of the weight of the evidence and the
credibility of the witnesses, and to the jury’s choice of the
competing inferences that can be drawn from the evidence,”
United States v. Best, 219 F.3d 192, 200 (2d Cir. 2000)
(internal quotation marks omitted).
In prosecutions involving controlled substance analogues,
the government may satisfy 21 U.S.C. § 841(a)(1)’s
knowledge requirement in either of two ways: First, it can
present evidence that the defendant “knew that the
substance with which he was dealing is some controlled
substance—that is, one actually listed on the federal drug
schedules or treated as such by operation of the Analogue
Act—regardless of whether he knew the particular identity
of the substance.” McFadden, 576 U.S. at 194. Second, it can
present evidence that the defendant knew that the
substance has a chemical structure and pharmacological
effects substantially similar to or greater than, those of a
controlled substance in schedule I or II. 9 Id. at 189, 193–95.
McFadden explains these alternative methods of proving knowledge in
several places. In one such articulation of the second route, McFadden
states that knowledge “can be established by evidence that the
defendant knew the specific analogue he was dealing with, even if he did
not know its legal status as an analogue.” 576 U.S. at 194. In isolation,
this language could be read to suggest that a defendant who knows the
identity of the analogue substance, but none of the features that make it
an analogue, has the requisite knowledge for conviction. Indeed, a
nonprecedential summary order of this Court, reviewing jury
instructions for plain error, could without context be understood to
endorse such a reading. See United States v. Smutek, 730 F. App’x 18,
22 (2d Cir. 2018) (“The district court correctly instructed the jury that
the government was required to prove beyond a reasonable doubt that
Smutek knew: (1) that Potion 9 contained a controlled substance
analogue, even if he did not know the identity of the substance, or (2)
that Potion 9 contained 1,4 butanediol, even if he did not know that 1,4
butanediol was a controlled substance analogue.”). But as the
subsequent sentences of McFadden—as well as other passages of the
decision—make clear, the government must either prove that the
defendant knew that the substance at issue was controlled or that it had
the chemical and pharmacological features that make it an analogue.
576 U.S. at 194–95 (“The Analogue Act defines a controlled substance
analogue by its features . . . . A defendant who possesses a substance
with knowledge of those features knows all of the facts that make his
conduct illegal . . . .”); id. at 196 (“Knowledge [that a substance is
controlled] can be established . . . either by knowledge that a substance
9

A:17

“Although the Government must prove that a defendant
knew that the substance in question was ‘a controlled
substance’ under federal law, the Government need not
introduce direct evidence of such knowledge. As with
prosecutions involving substances actually listed on the drug
schedules, the Government may offer circumstantial
evidence of that knowledge.” Id. at 195 n.3. “Circumstantial
evidence could include, for example, a defendant’s
concealment of his activities, evasive behavior with respect
to law enforcement, knowledge that a particular substance
produces a ‘high’ similar to that produced by controlled
substances, and knowledge that a particular substance is
subject to seizure at customs.” Id. at 192 n.1.
The government presented ample direct and circumstantial
evidence to prove that Defendants knowingly possessed and
distributed controlled substance analogues. First, as
Defendants admit on appeal, “[e]veryone material to the
transaction . . . knew [Defendants’] product was sold with
the intent that the consumer would ingest it for the purpose
of getting high.” Appellants’ Br. at 4. Numerous witnesses
testified that Defendants sought chemicals to produce a
“buzz” or “high” similar to or stronger than the one induced
by smoking marijuana, and that Defendants and their
employees at times smoked their product themselves to test
its potency. 10 But despite their admitted knowledge that
their product was intended to be smoked, Defendants
distributed it in packages labeled “not for human
consumption,” tracking the precise language of the Analogue
Act. See 21 U.S.C. § 813.
is listed or treated as listed by operation of the Analogue Act or by
knowledge of the physical characteristics that give rise to that
treatment. (internal citation omitted)); id. at 189 (“The knowledge
requirement is also met if the defendant knew the specific features of the
substance that make it a controlled substance analogue.” (internal
quotation marks omitted)); cf. also id. at 198 (Roberts, C.J., concurring in
part) (“[A] defendant needs to know more than the identity of the
substance; he needs to know that the substance is controlled.” (emphasis
in original)).
10 Employees testified that Real Feel at times produced products
incorporating a greater quantity of raw chemical to mimic the effects of a
greater quantity of THC, the primary psychoactive chemical in
marijuana.

A:18

This purposeful misdirection was far from the only evidence
that Defendants knew their product was both similar to
other controlled substances and controlled in its own right.
One former employee testified that each time the active
chemical in one of Defendants’ products was added to the
federal drug schedules, Defendants would replace it with
another that they expected to produce a similar high. The
government also presented evidence that Defendants labeled
their products with designs evoking the use of controlled
substances, including, in Requena’s own words, “a
Mule/Donkey that is smoked out” and a “[r]eference to
AMC’s Breaking Bad”—a television show about the
manufacture and distribution of methamphetamine. G.A.
294. Employee testimony suggested that this was no
innocent coincidence—one worker recalled that Raymond
openly informed Real Feel employees that “what we make . .
. [is] more than questionable.” Trial Tr. at 1070.
Evidence of the extreme precautions Defendants took to
conceal the nature of their operations further suggests that
Defendants knew their product incorporated controlled
substance analogues. The government presented evidence
that not only did Defendants label their product using the
language of the Analogue Act, they also maintained a list of
“words not to say!” including “smoke” and “analog,” G.A.
245, and they instructed their salespeople not to use
language suggesting that customers should smoke or
otherwise consume their products.
Witnesses also testified that although Defendants initially
had their chemical supplier ship the raw synthetic
cannabinoids directly to the warehouse where it was
incorporated into product for sale, they eventually had these
chemicals shipped to post office boxes or employees’ homes—
and in one case to an employee’s sister’s place of business—
instead. 11 See United States v. O’Brien, 926 F.3d 57, 80–81
11 Evidence showed that Requena obfuscated the purpose of Defendants’
business while completing the paperwork to open those post office boxes,
a tactic he also employed when opening Real Feel’s bank accounts.

A:19

(2d Cir. 2019) (describing a defendant’s instructions to ship
drugs to multiple associates’ addresses and post office boxes
as probative of his knowledge that the drugs are controlled).
Moreover, documents collected at Defendants’ warehouse
suggest that invoices accompanying at least some of the raw
chemical shipments misidentified the shipments’ contents
and price. See id. at 81 (“The intercepted packages . . . bore
labels that misrepresented their contents as various
uncontrolled substances, when in fact they contained [the
controlled substances] that O’Brien had ordered.”). And once
Real Feel had incorporated the raw chemicals into finished
product, Raymond insisted that employees ship it to
customers from multiple UPS Stores surrounding Real
Feel’s base of operations because “he didn’t want UPS
coming directly to” the warehouse. Trial Tr. 1063.
Other evidence suggested that Defendants attempted to
conceal their product entirely from public view.
Photographic evidence and testimony indicated that at an
annual trade show for smoke shops, Defendants
intentionally did not display any of their principal product,
exhibiting glassware instead. Former employees also
testified that Raymond filmed a reality-television-style video
to promote himself and Real Feel, but instructed workers to
conceal raw synthetic cannabinoids and finished products
from view—and instead to display glassware at the
workstations where they typically incorporated raw
synthetic cannabinoids into product for sale.
Moreover, the government presented ample evidence that
law enforcement activity put Defendants on notice that they
were dealing in controlled substances. Defendants’
accountant testified that though Defendants knew customs
frequently seized chemicals en route from their supplier in
China, they made no effort to recover them and, in at least
one case, filed a response voluntarily abandoning a
shipment. See McFadden, 576 U.S. at 192 n.1. When the
DEA raided Defendants’ warehouses in February 2014,
agents seized all raw chemical and finished product on the
premises and left a copy of the search warrant, which
authorized the seizure of items related to a conspiracy to
manufacture and distribute a controlled substance analogue

A:20

as defined in 21 U.S.C. §§ 802(32) and 813. Employees
testified that though Defendants continued to operate the
business following the raid, they never attempted to recover
the (very valuable) seized material.
Finally, the government also presented direct evidence that
Defendants knew the specific structure and pharmacological
effects of the chemicals in the products they sold. Former
Real Feel employees testified that Defendants, with the
assistance of their employees, researched state and federal
drug laws—including provisions on controlled substance
analogues. Among research materials recovered from
Defendants’ electronic files was a DEA publication detailing
the chemical structure and pharmacological effects of two of
the synthetic cannabinoids at issue in this case, noting that
each “may be treated as a ‘controlled substance analogue’”
pursuant to 21 U.S.C. § 813. G.A. 258.
In light of the foregoing, we easily conclude that the jury had
sufficient evidence to infer that Defendants knew they were
dealing in a controlled substance.
III.

Defendants’ Challenge Regarding Expert Testimony

Defendants also argue that the district court should have
excluded testimony by the government’s two expert
witnesses, Dr. Michael Van Linn and Dr. Jordan Trecki, as
to whether the synthetic cannabinoids at issue were
“substantially similar” in structure and pharmacological
effect to controlled substances. They argue that because
there is no objective chemical or pharmacological standard
for substantial similarity, the district court should not have
admitted expert testimony on that question under the
principles articulated in Daubert v. Merrell Dow
Pharmaceuticals, Inc., 509 U.S. 579, 592–94 (1993).
We review a district court’s decision to admit expert
testimony for abuse of discretion. United States v. Williams,
506 F.3d 151, 159–60 (2d Cir. 2007). Our review is “highly
deferential,” and we will sustain the district court’s decision
unless it is “manifestly erroneous.” Restivo v. Hessemann,
846 F.3d 547, 575 (2d Cir. 2017) (quoting Lore v. City of

A:21

Syracuse, 670 F.3d 127, 155 (2d Cir. 2012)). Pursuant to

Federal Rule of Evidence 702, a district court exercises a
gatekeeping function to ensure that a testifying expert’s
“scientific, technical, or other specialized knowledge will
help the trier of fact to understand the evidence or to
determine a fact in issue,” that the testimony is “based on
sufficient facts or data,” and that such testimony is “the
product of reliable principles and methods . . . reliably
applied . . . to the facts of the case.” Fed. R. Evid. 702.
Defendants’ challenge focuses on the last of these: they
contend that Dr. Van Linn’s and Dr. Trecki’s opinions of
whether one substance is “substantially similar” to another
are “not subject to verification through any means,” and lack
“any known error rate, possible means of replicating or
testing the correctness of the opinions, testing conditions, or
evidence of peer review,” and so should have been excluded.
Appellants’ Br. 47.
In assessing the reliability of an expert’s methodology, the
district court may consider, among other factors, “(1)
whether a theory or technique has been or can be tested; (2)
‘whether the theory or technique has been subjected to peer
review and publication;’ (3) the technique’s ‘known or
potential rate of error’ and ‘the existence and maintenance of
standards controlling the technique's operation;’ and (4)
whether a particular technique or theory has gained general
acceptance in the relevant scientific community.” Williams,
506 F.3d at 160 (quoting Daubert, 509 U.S. at 593–94
(1993)). But these factors are by no means a “definitive
checklist or test.” Kumho Tire Co. v. Carmichael, 526 U.S.
137, 150 (1999). Rather, “the gatekeeping inquiry must be
tied to the facts of a particular case,” and we defer “as much
to the trial court’s decisions about how to determine
reliability as to its ultimate conclusion.” Id. at 150, 152
(internal quotation marks omitted); see also United States v.
Romano, 794 F.3d 317, 331 (2d Cir. 2015) (“Whether
Daubert’s specific factors are . . . reasonable measures of
reliability in a particular case is a matter that the law
grants the trial judge broad latitude to determine.” (internal
quotation marks and alterations omitted)).

A:22

We conclude that the district court did not abuse its
discretion in permitting the government’s experts to opine
that the synthetic cannabinoids at issue are substantially
similar in structure and pharmacological effect to scheduled
substances. Although substantial similarity is not itself a
scientific standard, the district court had ample basis to
conclude that the experts’ opinions were nonetheless “the
product of reliable principles and methods . . . applied . . . to
the facts of the case.” Fed. R. Evid. 702(c) (emphasis added).
In explaining his conclusion that the substances at issue had
a substantially similar chemical structure to scheduled
substances, Dr. Van Linn described how chemists depict the
makeup and structure of organic molecules using twodimensional diagrams. He proceeded to use such diagrams
to compare the structures of each of the synthetic
cannabinoids at issue with their alleged scheduled
analogues. Likewise, Dr. Trecki explained various ways
pharmacologists assess a substance’s effect on the central
nervous system—including visual examination, in vitro
binding assays, in vitro functional assays, animal trials, and
case reports—and referred to these methods to compare the
hypothesized or observed pharmacological effects of each of
the synthetic cannabinoids at issue with those of allegedly
similar scheduled substances.
Admitting that the above methodologies are reliable,
Defendants concede that it was appropriate to permit the
experts to describe their analytical methods, as well as the
specific ways in which the substances at issue are similar to
and different from scheduled substances. They challenge
only the experts’ application of these methods to draw a
conclusion on the ultimate question of substantial
similarity. 12 But even this limited challenge must fail.
Of course, expert testimony is not objectionable “merely because it
‘embraces an ultimate issue’ to be decided by the factfinder.” Lore, 670
F.3d at 155 (quoting Fed. R. Evid. 704(a)). Indeed, such testimony is
sometimes critical in helping a jury understand highly technical
evidence. In analogue prosecutions, for instance, many jurors might find
the sort of chemical and pharmacological evidence necessary to prove
that a substance is a controlled substance analogue all but inscrutable,
absent expert guidance of this sort.
12

A:23

Defendants are correct that the actual determination of
substantial similarity is not a scientific one. 13 But as they
rightly concede, the government’s experts’ “opinions . . .
regarding the substantial similarity of [the] substances” in
this case are “based on . . . scientific facts or findings.”
Appellants’ Br. 48 (emphasis added). And the inferential
step between the experts’ uncontroversial scientific
observations and the ultimate question of whether the
substances have “substantially similar” properties is not
unduly “speculative[,] conjectural[,] or based on assumptions
that are so unrealistic and contradictory as to suggest bad
faith.” Zerega Ave. Realty Corp. v. Hornbeck Offshore
Transp., LLC, 571 F.3d 206, 214 (2d Cir. 2009) (internal
quotation marks and alteration omitted). Instead, these
experts’ opinions on substantial similarity are “the product
of reliable principles and methods . . . reliably applied to the
facts of the case,” precisely as Rule 702 requires. Fed. R.
Evid. 702; see also Restivo, 846 F.3d at 576 (explaining that
under Rule 702, scientists “may express professional
opinions that fall short of definitive proof” (internal
quotation marks omitted)). Accordingly, we reject
Defendants’ claim that the district court abused its
discretion. 14
We note parenthetically that a district court could well abuse its
discretion by permitting an expert to affirm that “substantial similarity”
is a matter of objective scientific fact rather than a subjective conclusion
based on a conventional understanding of the words “substantial” and
“similar.” The experts in this case, however, did no such thing. To the
contrary, Dr. Van Linn testified that “substantially similar” is “not a
scientific term” and “not a scientific question,” acknowledging that he
reached an understanding of its meaning after looking up its constituent
words in a standard dictionary. Trial Tr. 1539. Likewise, Dr. Trecki
testified that “substantial similarity” is “just a plain English term” and
“not scientific,” explaining that he, too, had used a dictionary to
determine its meaning. Tr. 1666–67. And in its instructions, the district
court admonished the jury not to “substitute [the experts’ opinions] for
your own reason, judgment, and common sense” because “[t]he
determination of the facts in this case rests solely with you.” A. 274.
13

14 To

our knowledge, every Court of Appeals to have considered a similar
question has reached the same conclusion. See, e.g., United States v.
Carlson, 810 F.3d 544, 553 (8th Cir. 2016) (affirming the district court’s
discretion to admit expert testimony on substantial similarity “based on”

A:24

IV.

Defendants’ Challenge to the Jury Instructions

Defendants further contend that the district court erred in
instructing the jury that it must unanimously agree that at
least one of the charged synthetic cannabinoids qualifies as
a controlled substance analogue, but that it need not
unanimously agree on precisely which substances so qualify.
Since Defendants did not object to the district court’s
instructions before the jury retired to deliberate, we review
the jury instructions for plain error. See Fed. R. Crim. P.
30(d). Under this standard, we will disturb the district
court’s decision only where “(1) there is an error; (2) the
error is clear or obvious, rather than subject to reasonable
dispute; (3) the error affected the appellant's substantial
rights, which in the ordinary case means it affected the
outcome of the district court proceedings; and (4) the error
seriously affect[s] the fairness, integrity or public reputation
of judicial proceedings.” United States v. Marcus, 560 U.S.
258, 262 (2010). Because we hold that the district court’s
instruction was not erroneous, Defendants’ challenge fails at
the first step of this analysis.
The Sixth Amendment to the Constitution guarantees that a
federal criminal jury “cannot convict unless it unanimously
finds that the Government has proved each element” of the
charged offense. Richardson v. United States, 526 U.S. 813,
817 (1999). But a disagreement about “which of several
possible sets of underlying brute facts make up a particular
element”—in other words, “which of several possible means
the defendant used to commit an element of the crime”—
does “not matter as long as all 12 jurors unanimously
conclude[] that the Government ha[s] prove[d] the necessary
related element . . . .” Id.

evidence, specialized knowledge, literature review, and discussions with
other scientists); cf. United States v. Galecki, 932 F.3d 176, 183, 186 (4th
Cir. 2019) (declaring that an expert’s testimony that a putative analogue
was not “substantially similar” to a scheduled substance would have
“violated no Federal Rules of Evidence”).

A:25

Elements, as opposed to “means” or “brute facts,” are
“ordinarily listed in the statute that defines the crime.” Id.;
see also United States v. O’Brien, 560 U.S. 218, 225 (2010)
(“[W]hether a given fact is an element of the crime . . . is a
question for Congress.”). Additional details not set out in the
statute typically are not elements even if they seem
intuitively central to the commission of an offense. For
example, in Mathis v. United States, 136 S. Ct. 2243, 2249
(2016), the Supreme Court discussed a hypothetical statute
that “requires use of a ‘deadly weapon’ as an element of a
crime and further provides that the use of a ‘knife, gun, bat,
or similar weapon’ would all qualify.” The Court explained
that because only the use of a deadly weapon is an
element—and the illustrative list “merely specifies diverse
means of satisfying [that] element”—a “jury could convict
even if some jurors concluded that the defendant used a
knife while others concluded he used a gun, so long as all
agreed that the defendant used a ‘deadly weapon.’” 15 Id.
(internal quotation marks and alterations omitted). That
said, if “statutory alternatives carry different [maximum or
minimum] punishments, then . . . they must be elements.”
Id. at 2256; Apprendi v. New Jersey, 530 U.S. 466, 490
(2000) (“Other than the fact of a prior conviction, any fact
that increases the penalty for a crime beyond the prescribed
statutory maximum must be submitted to a jury . . . .”);
Alleyne v. United States, 570 U.S. 99, 113–14 (2013)
(expanding the rule of Apprendi to facts that increase or
decrease the prescribed statutory minimum).
Applying these principles to the controlled substance
context, we have explained that the type and quantity of
drugs involved in a violation of § 841(a) must be submitted
to the jury “as an element . . . only in cases where the
15

This principle applies equally to a statute that leaves the many
potential means of fulfilling its elements entirely to the jury’s
imagination. See Descamps v. United States, 570 U.S. 254, 273 (2013)
(“As long as the statute itself requires only an indeterminate ‘weapon,’ . .
. [t]he jurors need not all agree on whether the defendant used a gun or a
knife or a tire iron . . . because the actual statute requires the jury to
find only a ‘weapon.’”).

A:26

Government will seek a sentence above” the statutory
maximum imposed by § 841(b)(1)(C)—the penalty provision
that applies to violations involving schedule I or II controlled
substances of “indeterminate” or “unspecified” amount and
identity. 16 United States v. Thomas, 274 F.3d 655, 660 &
nn.2–3 (2d Cir. 2001) (en banc); see also id. at 664, 673
(explaining that drug quantity need not be treated as an
element where the sentence imposed is within the range
authorized by § 841(b)(1)(C)). Otherwise, as long as the jury
unanimously agrees that the offense involved some schedule
I or II controlled substance, the specific nature of that
substance has no bearing on the statutory penalty range
and, as a result, “[t]he constitutional rule [requiring jury
unanimity] does not apply.” 17 Id. at 664; cf. United States v.
Reyes, 13 F.3d 638, 640 (2d Cir. 1994) (recognizing that
“[t]he nature of the controlled substance is . . . not an
essential element of” a criminal statute prohibiting the
importation of a “controlled substance”).

21 U.S.C. § 841(b)(1)(C) establishes maximum penalties for any
violation of § 841(a) involving a schedule I or II controlled substance.
Separately, § 841(b)(1)(A) and (B) provide that violations involving
certain specific types and quantities of schedule I or II substances may
carry penalties in excess of those authorized by § 841(b)(1)(C). Under
Apprendi and Alleyne, a district court may not sentence a defendant
under these enhanced penalty provisions unless the jury unanimously
determines that the offense involved the specific types and quantities of
drugs that trigger them. See Thomas, 274 F.3d at 673.
16

Section 841(b)(1)(C)’s generic reference to “a controlled substance in
schedule I or II” supports the conclusion that a jury need not agree on a
particular controlled substance to convict. 21 U.S.C. § 841(b)(1)(C)
(emphasis added). In assessing § 841’s knowledge requirement,
McFadden put special emphasis on the fact that § 841 prohibits conduct
involving “a controlled substance.” 576 U.S. at 191–92. Because the
“indefinite article[] ‘a’ means ‘[s]ome undetermined or unspecified
particular,” the Court held that § 841(a)(1) “requires a defendant to
know only that the substance he is dealing with is some unspecified
substance listed on the federal drug schedules.” Id. (citation omitted).
The same interpretive principle demands that we treat the language “a
controlled substance in schedule I or II” to refer “only” to “some
unspecified substance listed on [schedule I or II].”
17

A:27

In practice, this means that a jury can convict a defendant
for violating § 841 even if some jurors believe that the
defendant distributed one drug (say, cocaine) and others
believe that he actually distributed another (say, heroin). 18
Analogizing to the Supreme Court’s “deadly weapon”
example, we have held that a New York statute prohibiting
the sale of a “controlled substance” operates in precisely the
same way: Under that statute, “if some jurors believed that
a defendant had sold cocaine, and others believed that he
had sold heroin, they could still agree that he had sold ‘a
controlled substance,’ and issue a guilty verdict.” Harbin v.
Sessions, 860 F.3d 58, 65 (2d Cir. 2017) (citing Mathis, 136
S. Ct. at 2249).
But our past decisions have had occasion to distinguish
means from elements only in cases involving scheduled
substances. This case demands that we consider whether, in
a § 841 prosecution involving a controlled substance
analogue, the fact that a particular substance is an analogue
becomes an additional element of the offense, or whether a
substance’s analogue status is merely one of “various factual
means of” qualifying as a “controlled substance.” Mathis, 136
S. Ct. at 2249. Unsurprisingly, the government takes the
latter view. In response, Defendants contend that a putative
analogue may not “be treated . . . as a controlled substance”
by operation of 21 U.S.C. § 813 unless a jury has first
determined unanimously that the same substance meets the
statutory definition of “controlled substance analogue” set
out in § 802(32). In other words, Defendants argue that even
if a jury need not agree on precisely which analogues a
defendant manufactured, distributed, or possessed, it must
still unanimously agree that each particular substance
forming the basis of the conviction does, in fact, qualify as an
analogue.
We disagree. We conclude instead that in a prosecution for a
violation of 21 U.S.C. § 841(a) subject to the statutory
penalties in § 841(b)(1)(C), a substance’s analogue status is
Cocaine is a schedule II controlled substance. 21 U.S.C. § 812, sched.
II(a)(4). Heroin is a schedule I controlled substance. Id. § 812, sched.
I(b)(10).
18

A:28

nothing more than a means of fulfilling the element that the
defendant’s conduct involved a “controlled substance” in
schedule I or II. Thus, though a jury must unanimously find
that the defendant manufactured, distributed, or possessed
with the intent to distribute some schedule I or II controlled
substance, it need not unanimously agree on any more
specific description of that substance. Just as distributing a
scheduled substance is a potential means of fulfilling that
element, so too is distributing an analogue. 19 And just as the
specific identity of a scheduled substance is irrelevant to a
conviction pursuant to § 841(a) and (b)(1)(C), so too is the
specific identity of an analogue.
Our conclusion is rooted in the applicable statutory language
and penalty structure. See Harbin, 860 F.3d at 64–65. As
explained above, the specific nature of a scheduled
substance is not an element of the offense set out in § 841(a).
Nothing in the Analogue Act’s language indicates that it
adds a new element to that offense when the alleged conduct
involves a controlled substance analogue. To the contrary,
the instruction to “treat” an analogue as a schedule I
controlled substance “for the purposes of any Federal law”
strongly suggests the Analogue Act merely provides an
alternative means of committing controlled substance
offenses already defined elsewhere. 21 U.S.C. § 813(a). As
the Supreme Court pointedly observed in McFadden, “[t]he
Analogue Act does not alter [§ 841(a)(1)].” 576 U.S. at 193–
94.
Following § 813’s instruction to treat a controlled substance
analogue as a controlled substance, Congress could rewrite §
841—insofar as the offense involves an analogue—to make it
unlawful to “knowingly or intentionally . . . manufacture,
distribute, or dispense, or possess with intent to
manufacture, distribute, or dispense,” 21 U.S.C. § 841(a), “a
substance[,] . . . the chemical structure of which is
substantially similar to the chemical structure of a
Indeed, though not relevant here, a jury could convict a defendant for
violating § 841 even if some jurors believed the defendant distributed an
analogue and others believed he distributed a substance actually listed
on schedule I or II.
19

A:29

controlled substance in schedule I or II [and] . . . which has
[an] effect on the central nervous system that is
substantially similar to or greater than [that] of a controlled
substance in schedule I or II,” id. § 802(32)(A). As McFadden
explained, phrases set off with the “indefinite article ‘a’”
refer to “some undetermined or unspecified particular.”
McFadden, 576 U.S. at 191–92 (brackets omitted).
Accordingly, even when combined with the Analogue Act, §
841 requires only that the jury find an “undetermined or
unspecified” substance with the characteristics set out in §
802(32)(A).
The applicable penalty provisions point to the same
conclusion. Since all analogues are treated as schedule I
controlled substances, § 841(b)(1)(C) imposes the same
penalties no matter what analogue is involved in the offense.
It follows that an analogue’s specific identity, which has no
bearing on a defendant’s sentencing range, is a means
rather than an additional element. Cf. Harbin, 860 F.3d at
65 (“[That] [t]he law’s penalty provisions . . . prescribe the
same narrow range of penalties . . . no matter which
controlled substance a defendant has sold . . . [aligns] with
our reading . . . that each controlled substance is a mere
‘means’ of violating the statute, not a separate alternative
element.”).
Resisting this logic, Defendants insist that an unscheduled
substance “is only an analogue at the time of the jury’s
proclamation,” and that a jury must therefore make this
proclamation unanimously. Appellants’ Br. 54. But their
assumption that “a substance is not an analogue until a jury
unanimously finds that it is,” Reply Br. 24, begs the
question. Not every fact that calls for a qualitative
determination based on conflicting evidence is an element. 20
20

In their briefing and at oral argument, Defendants claimed that a
footnote in our decision in Ansaldi identified “substantial similarity” as
an element of an offense involving an analogue. See Ansaldi, 372 F.3d at
123 n.2. But the cited passage is a summary of the defendants’ briefing
in that case, not a declaration of the law. While an analogue-based
prosecution does require unanimous agreement that a defendant’s
offense involved a substance substantially similar to a scheduled
substance, individual jurors need not agree on precisely which substance
bears the requisite similarity.

A:30

After all, a substance’s analogue status is no more
dependent on a “jury’s proclamation” than an implement’s
“deadly weapon” status in the hypothetical posed in Mathis.
See Mathis, 136 S. Ct. at 2249. And in that case, the
Supreme Court clearly envisioned that a jury harboring
disagreements about the particular deadly weapon involved
could convict without taking separate, unanimous votes on
whether each individual juror’s chosen implement qualified
as a deadly weapon. See id.; see also Descamps v. United
States, 570 U.S. 254, 273 (2013) (“[A] court blessed with
sufficient time and imagination could devise a laundry list of
potential ‘weapons’ [including] (for starters) grenades, pipe
bombs, spears, tire irons, BB guns, nunchucks, and
crossbows.”). Taking Defendant’s theory to its logical
conclusion, Mathis’s declaration that “a jury need not find . .
. a particular item,” would extend only to the knives, guns,
and bats listed explicitly in the statute. 136 S. Ct. at 2249.
We strenuously doubt that the Supreme Court meant, but
declined to make express, that the specific weapon involved
in the crime vaults from means to element status as soon as
a single juror concludes that a defendant used not a “knife,
gun, [or] bat,” but instead a “similar weapon.” Id. The same
logic applies to analogues. As such, we reject Defendants’
argument that a jury must unanimously identify particular
analogues before individual jurors may treat those
analogues as means of fulfilling “the necessary related
element”—that is, the involvement of a controlled substance.
Richardson, 526 U.S. at 817.
For the foregoing reasons, the district court’s instruction
regarding unanimity was not error, plain or otherwise.
V.

Defendants’ Sentencing Challenge

Defendants next argue that the trial court committed
procedural error by failing to determine before sentencing
which of the six synthetic cannabinoids at issue qualified as
a controlled substance analogue. They contend that in the
absence of such findings, the district court’s calculation of
the total quantity of illegal substances in Defendants’

A:31

possession could not have been proper. But these arguments,
too, are unavailing. Although a district court must rule on
any material dispute regarding the presentence report
(“PSR”), Fed. R. Crim. P. 32(i)(3)(B), it “satisfies its
obligation to make the requisite specific factual findings
when it explicitly adopts the factual findings set forth in the
[PSR] . . . at the sentencing hearing or in the written
judgment it files later.” United States v. Molina, 356 F.3d
269, 275–76 (2d Cir. 2004). “Facts in support of a sentencing
calculation need only be proven by a preponderance of the
evidence, and the district court’s findings will not be
disturbed unless clearly erroneous.” United States v.
Halloran, 821 F.3d 321, 341 (2d Cir. 2016).
Here, the district court explicitly adopted the PSR’s factual
findings, which identified the relevant substances as
controlled substance analogues. The court likewise identified
all six of the charged substances in a post-trial order as “the
controlled substance analogues defendants conspired to
possess with the intent to distribute and to distribute” in its
decision following a pre-sentencing evidentiary hearing. G.A.
315. The district court heard more than sufficient testimony
at trial to find that each of these substances was a controlled
substance analogue by a preponderance of the evidence. And
because the resolution of disputed facts at sentencing is a
task for the district court alone, the fact that the jury made
no explicit findings as to which specific cannabinoids
qualified as controlled substance analogues is irrelevant. We
therefore detect no error in the sentence imposed by the
district court.
VI.

Defendants’ Conviction for Money Laundering

Finally, Defendants ask us to extend any relief granted
based on the foregoing to their convictions for money
laundering, which are premised in part on their drug
violation. Since we have determined that Defendants are
entitled to no relief in connection with their conviction for
conspiracy to distribute controlled substance analogues, we
need not revisit their convictions for money laundering.

A:32

CONCLUSION
In sum, we hold that:
(1) The Analogue Act’s instruction to treat a substance with
chemical and pharmacological properties “substantially
similar” to those of a scheduled substance as a controlled
substance in schedule I is not unconstitutionally vague on
its face, the Supreme Court’s decisions in Johnson, Dimaya,
and Davis notwithstanding.
(2) The government’s evidence was sufficient to prove
beyond a reasonable doubt that Defendants knew they
distributed a controlled substance.
(3) The district court did not abuse its discretion when it
allowed the government’s experts to testify that the
synthetic cannabinoids at issue had chemical and
pharmacological properties “substantially similar” to those
of controlled substances in schedule I.
(4) The district court correctly instructed the jury that it
need not unanimously agree on which of the six synthetic
cannabinoids charged in the indictment meet the statutory
definition of a controlled substance analogue.
(5) The district court made all of the factual findings
necessary to calculate Defendants’ base offense level at
sentencing.
(6) Because Defendants are entitled to no relief in connection
with their drug conviction, their money laundering
conviction likewise stands.
Accordingly, we AFFIRM the judgment of the district court.

A:33

APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
________________________________________________________
UNITED STATES OF AMERICA
-V-

5:15-CR-81

ANDREW RAYMOND and BRIAN REQUENA,
Defendants.
________________________________________________________
APPEARANCES:
Hon. Richard S. Hartunian, United States Attorney
Carla B. Freedman, Esq., Assistant United States Attorney
100 South Clinton Street
Syracuse, New York 13261
Marks & Brooklier, LLP
Anthony P. Brooklier, Esq., of counsel
10100 Santa Monica Blvd. - Suite 300
Los Angeles, California 90067
and
Office of Michael Spano
Michael Spano, Esq., of counsel
304 South Franklin Street
Syracuse, New York 13202
Attorneys for Andrew Raymond
Law Office of Mark McBride, P.C.
Mark A. McBride, Esq., of counsel
468 North Camden Drive, Suite 211
Beverly Hills, California 90210
Attorney for Brian Requena
Hon. Norman A. Mordue, Senior U.S. District Judge:

B:34

MEMORANDUM-DECISION AND ORDER
INTRODUCTION
The first superseding indictment (Dkt. No. 63) charges
Andrew Raymond and Brian Requena with one count of
conspiracy to possess with the intent to distribute and to
distribute controlled substance analogues and one count of
money laundering conspiracy. 1 Defendants move (Dkt. No.
80) to dismiss Count One. The motion is denied.
SUPERSEDING INDICTMENT - COUNT ONE
Count One of the superseding indictment (Dkt. No. 63),
“Drug Trafficking Conspiracy,” charges defendants with
violating 21 U.S.C. § 846 (“Section 846”) by conspiring to
possess with the intent to distribute and to distribute one or
more controlled substance analogues, as defined in 21 U.S.C.
§ 802(32) (“Section 802(32)”), with the intent that they be
used for human consumption as provided in 21 U.S.C. § 813
(“Section 813”), in violation of 21 U.S.C. § 841(a)(1) (“Section
841(a)(1)”). It further alleges that the offense involved
substances known as XLR11; PB-22; 5F-PB-22; ABPINACA; 5-Fluoro-AB-PINACA; and APP-CHMINACA.
Count One states that the charged conduct took place
“[f]rom in or about April 2013, through on or about April 14.
2015, in Onondaga County in the Northern District of New
York, and elsewhere.”
THE MOTION
Defendants move to dismiss Count One of the superseding
indictment on two grounds: (1) the superseding indictment
fails to state an offense; and (2) Sections 813 and 802(32)(A)
are unconstitutionally vague. As explained below, the
motion is denied.

1

Zefren Michael, charged with Raymond and Requena in the initial
indictment, entered into a plea agreement on November 20, 2015 (Dkt.
No. 44), and was not named in the superseding indictment.

B:35

1.

The Statutory Elements of Count One

Under Section 841(a)(1) (with exceptions not pertinent here),
it is “unlawful for any person knowingly or intentionally –
(1) to manufacture, distribute, or dispense, or possess with
intent to manufacture, distribute, or dispense, a controlled
substance[.]”). Section 846 provides that anyone attempting
or conspiring to commit a Section 841 offense is “subject to
the same penalties as those prescribed for the offense, the
commission of which was the object of the attempt or
conspiracy.” Controlled substances are defined in 21 U.S.C. §
812 (“Section 812”), which establishes five schedules of
controlled substances: schedules I, II, III, IV, and V.
With respect to controlled substance analogues, Section 813,
“Treatment of controlled substance analogues” provides in
full:
A controlled substance analogue shall, to the extent
intended for human consumption, be treated, for the
purposes of any Federal law as a controlled substance
in schedule I.
“Controlled substance analogue” is defined as follows:
[With exceptions not applicable here], the term
“controlled substance analogue” means a substance –
(i) the chemical structure of which is substantially
similar to the chemical structure of a controlled
substance in schedule I or II;
(ii) which has a stimulant, depressant, or
hallucinogenic effect on the central nervous system
that is substantially similar to or greater than the
stimulant, depressant, or hallucinogenic effect on the
central nervous system of a controlled substance in
schedule I or II; or
(iii) with respect to a particular person, which such
person represents or intends to have a stimulant,
depressant, or hallucinogenic effect on the central
nervous system that is substantially similar to or
greater than the stimulant, depressant, or

B:36

hallucinogenic effect on the central nervous system of
a controlled substance in schedule I or II.
21 U.S.C. § 802(32)(A). 2
Regarding the “knowledge” element of Section 841(a)(1)
where the substance in issue is a controlled substance
analogue, the Supreme Court instructs:
Th[e] knowledge requirement [of Section 841(a)] can
be established in two ways. First, it can be established
by evidence that a defendant knew that the substance
with which he was dealing is some controlled
substance – that is,
one actually listed on the federal drug schedules or
treated as such by operation of the Analogue Act—
regardless of whether he knew the particular identity
of the substance. Second, it can be established by
evidence that the defendant knew the specific
analogue he was dealing with, even if he did not know
its legal status as an analogue.

McFadden v. United States, 135 S. Ct. 2298, 2305 (2015).
2.

Whether the Superseding Indictment Fails to State
an Offense

Defendants move to dismiss the superseding indictment on
the ground that it does not state an offense. See Fed. R.
Crim. P. 12(b)(3)(B)(v). An indictment “shall be a plain,
concise and definite written statement of the essential facts
constituting the offense charged[.]” Fed.R.Crim.P. 7(c)(1). It
2

This Court accepts the “conjunctive” reading of Section 802(32)(A), that
is, the reading that implies an “and” at the end of subparagraph (i).
Under this reading, “the definition requires two things: first, (i) that the
substance be chemically similar and, second, (ii) that it have a similar or
greater psychopharmacological effect or (iii) that it be intended to have
or be represented as having such an effect.” United States v. Roberts,
363 F.3d 118, 120 (2d Cir. 2004).

B:37

need do “little more than to track the language of the statute
charged and state the time and place (in approximate terms)
of the alleged crime.” United States v. Stringer, 730 F.3d
120, 124 (2d Cir. 2013) (internal quotation marks omitted).
An indictment is sufficient if it “first, contains the elements
of the offense charged and fairly informs a defendant of the
charge against which he must defend, and, second, enables
him to plead an acquittal or conviction in bar of future
prosecutions for the same offense.” Id. (quoting Hamling v.
United States, 418 U.S. 87, 117 (1974)).
The elements charged in Count One of the superseding
indictment herein are that defendants conspired (Section
846); knowingly and intentionally to possess with intent to
distribute and to distribute, (Section 841(a)(1)); controlled
substance analogues (Section 802(32)); with intent that the
substances be used for human consumption (Section 813);
and did so knowingly and intentionally. See McFadden, 135
S.Ct. at 2305. The superseding indictment lists six alleged
controlled substance analogues and states that the charged
conduct occurred in or about April 2013 through on or about
April 14, 2015, in Onondaga County in the Northern District
of New York and elsewhere. The Court finds that the
superseding indictment tracks the operative language of the
statutes that criminalize the charged offense and states “the
time and place (in approximate terms) of the alleged crime.”
Stringer, 730 F.3d at 124.
Defendants’ argument that the superseding indictment does
not state an offense is based on a mischaracterization of the
superseding indictment. In making their argument,
defendants state: “Count I of the Indictment alleges that
substances are ‘controlled substance analogues’ of specific
‘cannabimimetic
agents’
listed
under
21
U.S.C.
812(c)(d)(2)(A).” Similarly, in their reply brief, defendants
write: “Essentially, the Government seeks to apply the
Analogue Act to three (i.e., XLR-11; PT-22; 5F-PB-22)
substances which it alleges to be analogues of two of the
fifteen (15) cannabimimetic agents” listed in Section
812(c)(d)(2)(B)[.]” The superseding indictment, however,
contains no such allegations. Rather, it clearly charges six
substances as controlled substance analogues, not as

B:38

cannabimimetic
agents
or
cannabimimetic
agent
analogues.3 Moreover, the Government makes clear in its
opposition papers that the controlled substance analogues
charged in the superseding indictment are not
cannabimimetic agents, nor are they alleged to be analogues
of cannabimimetic agents. Defendants present nothing to
the contrary. Indeed, as the Government points out, federal
regulations expressly state that PB-22, 5F-PB-22, XLR11,
and AB-PINACA “do not fall under the definition of
cannabimimetic agents.” 79 FR 7577-01 at *7579, 2014 WL
496640; 80 FR 5042-01 at *5044, 2015 WL 366892. The
Court has thoroughly reviewed the arguments advanced by
defendants and finds no support for their argument that
Count One of the superseding indictment fails to state an
offense.
Count One of the superseding indictment is sufficient under
Fed.R.Crim.P. 7(c)(1) and Stringer, 730 F.3d at 124.
Dismissal on this ground is denied.
3.

Whether
Sections
813
Unconstitutionally Vague

and

802(32)(A)

Are

The Supreme Court explains the vagueness doctrine as
follows: “Vagueness may invalidate a criminal law for either
of two independent reasons. First, it may fail to provide the
kind of notice that will enable ordinary people to understand
what conduct it prohibits; second, it may authorize and even
encourage arbitrary and discriminatory enforcement.” City
of Chicago v. Morales, 527 U.S. 41, 56 (1999). In the instant
case, defendants challenge on vagueness grounds the
controlled substance analogue law as it applies to the
charges against them. An “as-applied” challenge asks
“whether the language conveys sufficiently definite warning
3

It appears from defendants’ reply memorandum of law that their
argument may be based on an assumption that the meaning of
“cannabimimetic agent” is identical to “synthetic cannabinoid.” They do
not expressly advance this assertion and cite no authority for it. The
Government states: “Cannabimimetic agents are within the class of
substances commonly referred to as synthetic cannabinoids, but there
are many synthetic cannabinoids, including those listed in Count One of
the superseding indictment, that do not satisfy the precise statutory
definition of ‘cannabimimetic agents.’”

B:39

as to the proscribed conduct when measured by common
understanding and practices.” VIP of Berlin, LLC v. Town of
Berlin, 593 F.3d 179, 187 (2d Cir. 2010).
Section 802(32)(A) defines a controlled substance analogue,
and Section 813 provides that a controlled substance
analogue shall be treated as a controlled substance.
Defendants
argue
that
these
provisions
are
unconstitutionally vague as applied to the charged conduct.
Defendants state in their reply memorandum of law: “The
only vagueness argument raised in Defendants’ Motion is
that the statutory definition of controlled substance
analogues is unconstitutionally vague as applied to any
substance alleged to be a controlled substance analogue of a
cannabimimetic agent” (emphasis added; internal quotation
marks omitted). Because the superseding indictment does
not allege that the substances in issue are controlled
substance analogues of cannabimimetic agents, the Court
rejects defendants’ vagueness argument.
Defendants raise no other vagueness argument. Dismissal of
Count One on the ground of vagueness is denied.
CONCLUSION
It is therefore
ORDERED that defendants’ motion (Dkt. No. 80) to dismiss
Count One of the superseding indictment is denied.
IT IS SO ORDERED.
Date: August 23, 2016
Syracuse, New York

B:40

